               REGU
           EAR     LA
         CL          T




   NU




                        OR
STATES




                          YC
                         OMMI S
 ED




                         SI
    IT




                         O
                    N
         UN




The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility       Semiannual Report
                                                                                               to Congress
employees, contractors and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.                        April 1, 2011–September 30, 2011
What should be reported:
• Contract and Procurement Irregularities       • Abuse of Authority
• Conflicts of Interest                         • Misuse of Government Credit Card
• Theft and Misuse of Property                  • Time and Attendance Abuse
• Travel Fraud                                  • Misuse of Information Technology Resources
• Misconduct                                    • Program Mismanagement


Ways to Contact the OIG
                                  Call:
                                  OIG Hotline
                                  1-800-233-3497
                                  TDD: 1-800-270-2787
                                  7:00 a.m. – 4:00 p.m. (EST)
                                  After hours, please leave a message


                                  Submit:
                                  On-Line Form
                                  www.nrc.gov
                                  Click on Inspector General
                                  Click on OIG Hotline



                                  Write:
                                  U.S. Nuclear Regulatory Commission
                                  Office of the Inspector General
                                  Hotline Program, MS O5 E13
                                  11555 Rockville Pike
                                  Rockville, MD 20852-2738


NUREG-1415, Vol. 24, No. 1
October 2011
OIG VISION                                                                  OIG STRATEGIC GOALS
“We are agents of positive change striving for continuous                   1. Strengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”                and the environment.
                                                                            2. Enhance NRC’s efforts to increase security in response to an
                                                                               evolving threat environment.
OIG MISSION
                                                                            3. Increase the economy, efficiency, and effectiveness with
NRC OIG’s mission is to (1) independently and objectively conduct              which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs             resources.
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




  1


          2

                            5
  3

                                    6
          4

                            7


COVER PHOTOS:
1. Spent fuel stored in pool.
   Photo courtesy of the Nuclear Energy Institute.
2. Dual purpose canister being inserted into transfer cask prior to
   used fuel loading at nuclear reactor site.
   Photo courtesy of Holtec International, Inc.
3. Fuel storage basket inside dual purpose canister is visible.
   Photo courtesy of Holtec International, Inc.
4. Spent fuel assembly being loaded into a Holtec dual purpose canister.
   Photo courtesy of Holtec International, Inc.
5. Dual purpose canister lid being installed underwater.
   Photo courtesy of Holtec International, Inc.
6. Spent fuel cask transported to storage.
7. Dry cask storage of spent nuclear fuel.
A Message From
The Inspector General
I am pleased to present this Semiannual Report to Congress on the activities
and accomplishments of the Nuclear Regulatory Commission (NRC) Office
of the Inspector General (OIG) from April 1, 2011, to September 30, 2011.

Our work reflects the legislative mandate of the Inspector General Act, which
is to identify and prevent fraud, waste, and abuse through the conduct of audits and investigations
relating to NRC programs and operations. The audits and investigations highlighted in this
report demonstrate our commitment to ensuring integrity and efficiency in NRC’s programs and
operations.

NRC continues to perform its critical agency functions to ensure the safe and secure civilian use of
byproduct, source, and special nuclear materials. During this reporting period, NRC OIG continued
its focus on critical agency operations to include NRC’s oversight of independent spent fuel storage
installations, master materials licensees, and tritium production at commercial nuclear power plants.
Our efforts to work with NRC to identify risks and vulnerabilities early on affords the agency the
opportunity to take any necessary corrective action.

During this semiannual period, we issued 11 performance audit reports and analyzed 11 contract
audit reports. As a result of this work, OIG made a number of recommendations to improve the
effective and efficient operation of NRC’s safety, security, and corporate management programs.
OIG also opened 30 investigations, and completed 33 cases. Five of the open cases were referred to
the Department of Justice, and 19 allegations were referred to NRC management for action.

NRC OIG remains committed to the integrity, efficiency, and effectiveness of NRC programs and
operations. The audits, investigations, and other activities highlighted in this report demonstrate that
ongoing commitment. I would like to acknowledge our auditors, investigators, and support staff for
their superior work and commitment to the mission of our office.

Finally, the success of NRC OIG would not be possible without the collaborative efforts
between my staff and agency staff to address OIG findings and to timely implement the corrective
actions recommended by my office. I wish to thank these staff for their dedication and support,
and I look forward to their continued cooperation as we work together to ensure the integrity of
agency operations.




Hubert T. Bell
Inspector General




                                                                  April 1, 2011–September 30, 2011     i
                                                                         Dry storage casks

ii   NRC Office of the Inspector General Semiannual Report to Congress
Contents
  Highlights  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . v
  	Audits .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  v
  	Investigations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . vii
  Overview of NRC and OIG  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
  	     NRC’s Mission  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
  	     OIG History, Mission, and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  2
  		         OIG History  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 2
  		         OIG Mission and Goals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  3
  OIG Programs and Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 4
  	     Audit Program .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  4
  	     Investigative Program  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  5
  	     OIG General Counsel Activities .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  6
  		         Regulatory Review  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 6
  	     Other Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  9
  		         Support of the IG Community in Training and Presentations .  .  .  .  .  .  .  .  9
  		Publication .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 9
  Management and Performance Challenges  .  .  .  .  .  .  .  .  .  .  . 10
  Audits  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .11
  	     Audit Summaries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 11
  	     Audits in Progress .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 27
  Investigations .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .33
  	     Investigative Case Summaries  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 33
  Summary of OIG Accomplishments  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
  	     Investigative Statistics  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 37
  	     Audit Listings .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 39
  	     Audit Resolution Activities  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 43
  Abbreviations and Acronyms  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .46
  Reporting Requirements .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .47
  Appendix  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .48


                                                                                          April 1, 2011–September 30, 2011       iii
                                                                         Spent fuel pool


iv   NRC Office of the Inspector General Semiannual Report to Congress
Highlights
The following two sections highlight selected audits and investigations completed during this
reporting period. More detailed summaries appear in subsequent sections of this report.

AUDITS
•	 With the anticipated growth of nuclear power in the United States and the
   uncertainty over the permanent storage of spent fuel at Yucca Mountain, nuclear
   power plants have a growing need for additional spent fuel storage capacity to
   support continued operation. Independent spent fuel storage installations (ISFSI)
   are NRC-licensed facilities that store dry casks containing used nuclear reactor fuel,
   otherwise known as spent fuel. Most ISFSIs are located at operating reactor sites.
   An ISFSI typically consists of a concrete storage pad, storage containers (casks),
   and any support facilities. OIG conducted two audits related to ISFSI safety and
   security, respectively. The ISFSI safety audit objective was to determine if NRC has
   the requisite processes in place for reviewing ISFSI safety. The ISFSI security audit
   objective was to determine the adequacy of NRC’s oversight of ISFSI security.

•	 On March 21, 2007, NRC initiated a shuttle service that now operates between
   its main headquarters complex (White Flint) in Rockville, Maryland, and several
   nearby interim facilities opened to provide temporary workspace during the
   construction of a new office building at White Flint. OIG conducted an audit
   of NRC’s shuttle service based on a request made by the Office of the Executive
   Director for Operations. The audit objective was to determine the effectiveness,
   efficiency, and economy of the shuttle service versus public transportation.

•	 The Governmentwide Purchase Card Program was established in the late 1980s as
   a way for agencies to streamline the Federal acquisition processes by providing a
   low-cost, efficient vehicle for obtaining goods and services directly from vendors.
   Purchase cards can be used for micro-purchases, as well as to place orders and make
   payments on contract activities. From December 1, 2008, through March 31,
   2010, NRC had about 160 purchase cardholders who incurred transactions totaling
   approximately $8.3 million. The audit objective was to determine whether NRC has
   established and implemented an effective system of internal control over the use of
   Federal purchase cards.

•	 NRC regulates medical, industrial, and academic uses of nuclear materials through
   a combination of regulatory requirements, including licensing, inspection, and
   enforcement. NRC also issues Master Materials Licenses (MML) to Federal agencies.
   An MML is a materials license issued to a Federal agency authorizing use of material
   at multiple sites that fall under the jurisdiction of the Federal agency. The MML
   allows the Federal agency to conduct some activities as a regulator, such as issuing
   permits for radioactive materials use at the sites that use materials (referred to as
   permittees), conducting inspections, handling allegations, following up on incidents
   and events, and taking enforcement actions. NRC, in turn, provides oversight of
   MML licensees and permittees through various means. The audit objective was to
   determine whether NRC’s oversight of MML licensees adequately protects public
   health and safety and the environment.


                                                                           April 1, 2011–September 30, 2011   v
                   •	 NRC staff process on agency networks a category of sensitive unclassified
                      information unique to NRC called Sensitive Unclassified Non-Safeguards
                      Information (SUNSI). NRC defines SUNSI as “…any information of which the
                      loss, misuse, modification, or unauthorized access can reasonably be foreseen to
                      harm the public interest, the commercial or financial interests of the entity or
                      individual to whom the information pertains, the conduct of NRC and Federal
                      programs, or the personal privacy of individuals.” NRC staff process electronic
                      documents containing SUNSI in a variety of ways. Regardless of how NRC
                      employees exchange SUNSI on agency networks, Federal law requires that NRC
                      maintain adequate controls over the confidentiality, integrity, and availability of this
                      information. The audit objective was to assess whether NRC effectively protects
                      electronic documents containing Personally Identifiable Information and other types
                      of SUNSI on NRC’s shared network drives.

                   •	 NRC implemented the iLearn Learning Management System in April 2008 in
                      response to the E-Government Act of 2002. iLearn is a vehicle for providing training
                      distribution and tracking services directly to employees. It serves as a central point
                      for training activities across the agency and allows employees to see all NRC-offered
                      courses, develop a learning plan, register for training, track training history, access
                      online training, and complete evaluations from their desktop. The audit objective
                      was to determine the effectiveness of the iLearn Learning Management System to
                      support the agency’s current and future training needs.

                   •	 One way NRC provides oversight of licensees is through the management of
                      regulatory commitments. Commitments are docketed, written statements describing
                      a specific action that the licensee has agreed or volunteered to take. They often result
                      from a licensing action such as a license amendment, including power uprates, or
                      from a generic communication, such as generic letters and bulletins. Commitments
                      are neither legally binding nor obligations of a license; however, a commitment
                      may be escalated into a legally binding obligation only if NRC staff deems that
                      the commitment is essential for ensuring public health and safety. Licensees are
                      responsible for creating, tracking, and handling all commitments made to NRC. The
                      audit objective was to assess the extent to which NRC appropriately and consistently
                      utilizes and manages regulatory commitments for power reactor licensees.

                   •	 Since the 1970s, NRC has used probabilistic risk assessment (PRA) as a tool for
                      assessing, in a realistic manner, the strengths and weaknesses of nuclear plant
                      design and operation. PRA is a technical analysis that systematically answers three
                      questions: (1) What can go wrong? (2) How likely is it to happen? and (3) What are
                      the consequences? NRC developed the Systems Analysis Programs for Hands-on
                      Integrated Reliability Evaluations, or SAPHIRE, to aid in conducting these
                      PRA evaluations. SAPHIRE is a software tool that performs the highly complex
                      mathematics behind PRA. The audit objective was to determine if the system meets
                      its required operational capabilities and applicable security controls.




vi   NRC Office of the Inspector General Semiannual Report to Congress
•	 Tritium is a radioactive isotope of hydrogen used in U.S. nuclear weapons. In 1999,
   Federal law authorized tritium production at two commercial nuclear power plants
   owned by the Tennessee Valley Authority (TVA). Tritium production at commercial
   nuclear power plants involves the redesign of an important reactor core component
   as well as coordination between NRC and DOE. To produce tritium, the normal
   absorbing material in the reactor core, boron, is replaced by an isotope of lithium,
   requiring a redesign of the absorber rods. That isotope of lithium is an absorber
   like boron, but the nuclear reaction it undergoes during the absorption process
   also produces tritium. Such rods are called tritium producing burnable absorber
   rods (TPBAR). NRC has issued license amendments to TVA allowing loading of
   TPBARs at Watts Bar Nuclear Power Plant Unit 1 and Sequoyah Nuclear Power
   Plant Units 1 and 2, although tritium production has occurred only at Watts
   Bar Unit 1. The evaluation objective was to determine the effectiveness of NRC’s
   oversight of tritium production at commercial nuclear reactors.

•	 NRC offers a physical fitness program as part of its wellness services program for
   agency employees. The fitness program was established to provide employees a
   fitness strategy to enhance job performance, decrease absenteeism, and prepare
   employees to meet the physical requirements of specified positions. This audit
   focused on the headquarters onsite fitness center, which currently has approximately
   700 members. At the agency’s request, OIG conducted an audit of the effectiveness
   of NRC’s internal control over fitness center membership fees at headquarters. The
   request was made subsequent to NRC’s identification of three concerns involving
   fitness center membership fees.



INVESTIGATIONS
•	 OIG conducted an investigation based on an allegation from a former NRC licensee
   employee that the NRC Region II Office of Investigations did not adequately
   investigate the alleger’s discrimination complaint against the licensee.

•	 OIG conducted an investigation based on a concern that NRC’s regulations
   concerning patients treated with radioisotopes, and the criteria for which these
   patients are released from medical care, could potentially irradiate unknowing
   members of the public. As a result of the concern, OIG conducted a limited review
   of NRC’s oversight of licensees that administer Iodine-131, a radiopharmaceutical
   commonly used in therapeutic treatments of hyperthyroidism and thyroid
   carcinoma.

•	 OIG conducted an investigation based on an allegation submitted by a former NRC
   employee that the NRC Office of the General Counsel (OGC) issued conflicting
   statements addressing the recovery of cancer treatment patients in hotels. According
   to the allegation, OGC concurred with an NRC document sent to NRC Region I
   that stated the release of cancer treatment patients “to a hotel was not prohibited by




                                                                    April 1, 2011–September 30, 2011   vii
                        [NRC] regulations”; however, in November 2008, OGC filed a legal brief with the
                        U.S. Court of Appeals for the Ninth Circuit that stated, “NRC’s rule [10 CFR Part
                        35.75] does not permit or encourage doctors to send treated patients to hotels.”

                    •	 OIG conducted an investigation based on an allegation by a former NRC employee
                       that the NRC Division of License Renewal project schedule for the Supplemental
                       Environmental Impact Statement was not ideal for the lengthy license renewal
                       review process. The alleger also stated that Division of License Renewal management
                       pushes staff to complete these reviews and the process yields inaccuracies.
                       Further, there were concerns with the overall accuracy of the Salem/Hope Creek
                       Supplemental Environmental Impact Statement findings.




viii   NRC Office of the Inspector General Semiannual Report to Congress
Overview of NRC and OIG
NRC’S MISSION
NRC was formed in 1975, in accordance with the Energy Reorganization Act of 1974,
to regulate the various commercial and institutional uses of nuclear materials. The agency
succeeded the Atomic Energy Commission, which previously had responsibility for both
developing and regulating nuclear activities.

NRC’s mission is to regulate the Nation’s civilian use of byproduct, source, and special
nuclear materials to ensure adequate protection of public health and safety, promote the
common defense and security, and protect the environment. NRC’s regulatory mission
covers three main areas:

•	   Reactors—Commercial reactors that generate electric
     power and research and test reactors used for research,
     testing, and training.

•	   Materials—Uses of nuclear materials in medical,
      industrial, and academic settings and facilities that
      produce nuclear fuel.

•	   Waste—Transportation, storage, and disposal of
      nuclear materials and waste, and decommissioning of
      nuclear facilities from service.

Under its responsibility to protect public health and safety, NRC has three principal
regulatory functions: (1) establish standards and regulations, (2) issue licenses for nuclear
facilities and users of nuclear materials, and (3) inspect facilities and users of nuclear
materials to ensure compliance with the requirements. These regulatory functions relate
both to nuclear power plants and other uses of nuclear materials – like nuclear medicine
programs at hospitals, academic activities at educational institutions, research, and such
industrial applications as gauges and testing equipment.

NRC maintains a current Web site and a public document room at NRC headquarters
in Rockville, Maryland, and holds public hearings, public meetings in local areas and at
NRC offices, and discussions with individuals and organizations.

	




                                                                         April 1, 2011–September 30, 2011   1
                   OIG HISTORY, MISSION, AND GOALS
                   OIG History
                   In the 1970s, Government scandals, oil shortages, and stories of corruption covered by
                   newspapers, television, and radio stations took a toll on the American public’s faith in
                   its Government. The U.S. Congress knew it had to take action to restore the public’s
                   trust. It had to increase oversight of Federal programs and operations. It had to create a
                   mechanism to evaluate the effectiveness of Government programs. And, it had to provide
                   an independent voice for economy, efficiency, and effectiveness within the Federal
                   Government that would earn and maintain the trust of the American people.

                   In response, Congress passed the landmark legislation known as the Inspector General
                   (IG) Act, which President Jimmy Carter signed into law in 1978. The IG Act created
                   independent Inspectors General, who would protect the integrity of Government;
                   improve program efficiency and effectiveness; prevent and detect fraud, waste, and abuse
                   in Federal agencies; and keep agency heads, Congress, and the American people fully and
                   currently informed of the findings of IG work.

                   Today, the IG concept is a proven success. IGs continue to deliver significant
                   benefits to our Nation. Thanks to IG audits and investigations, billions of dollars
                   have been returned to the Federal Government or have been better spent based on
                   recommendations identified through those audits and investigations. IG investigations
                   have also contributed to the prosecution of thousands of wrongdoers. In addition, IG
                   concepts of good governance, accountability, and monetary recovery encourages foreign
                   governments to seek advice from IGs, with the goal of replicating the basic IG principles
                   in their own governments.




2   NRC Office of the Inspector General Semiannual Report to Congress
OIG Mission and Goals
NRC’s OIG was established as a statutory entity on April 15, 1989, in accordance with
the 1988 amendment to the IG Act. NRC OIG’s mission is to (1) independently and
objectively conduct and supervise audits and investigations relating to NRC programs
and operations; (2) prevent and detect fraud, waste, and abuse; and (3) promote
economy, efficiency, and effectiveness in NRC programs and operations.

OIG is committed to ensuring the integrity of NRC programs and operations.
Developing an effective planning strategy is a critical aspect of accomplishing this
commitment. Such planning ensures that audit and investigative resources are used
effectively. To that end, OIG developed a Strategic Plan1 that includes the major
challenges and critical risk areas facing NRC.

The plan identifies the priorities of OIG and establishes a shared set of expectations
regarding the goals OIG expects to achieve and the strategies that will be employed to do
so. OIG’s Strategic Plan features three goals, which generally align with NRC’s mission
and goals:

1.	 S
     trengthen NRC’s efforts to protect public health and safety and the
    environment.

2.	 E
     nhance NRC’s efforts to increase security in response to an evolving threat
    environment.

3.	 I ncrease the economy, efficiency, and effectiveness with which NRC manages
     and exercises stewardship over its resources.




1
    OIG’s current Strategic Plan covers the period FY 2008 through FY 2013.




                                                                              April 1, 2011–September 30, 2011   3
OIG Programs and Activities
                   AUDIT PROGRAM
                   The OIG Audit Program focuses on management and financial operations; economy
                   or efficiency with which an organization, program, or function is managed; and
                   whether the programs achieve intended results. OIG auditors assess the degree to
                   which an organization complies with laws, regulations, and internal policies in
                   carrying out programs, and they test program effectiveness as well as the accuracy and
                   reliability of financial statements. The overall objective of an audit is to identify ways
                   to enhance agency operations and promote greater economy and efficiency. Audits
                   comprise four phases:

                   •	   Survey phase—An initial phase of the audit process is used to gather information,
                        without detailed verification, on the agency’s organization, programs, activities, and
                        functions. An assessment of vulnerable areas determines whether further review is
                        needed.

                   •	   Verification phase—Detailed information is obtained to verify findings and support
                        conclusions and recommendations.

                   •	   Reporting phase—The auditors present the information, findings, conclusions,
                        and recommendations that are supported by the evidence gathered during the
                        survey and verification phases. Exit conferences are held with management officials
                        to obtain their views on issues in the draft audit report. Comments from the exit
                        conferences are presented in the published audit report, as appropriate. Formal
                        written comments are included in their entirety as an appendix in the published
                        audit report.

                   •	   Resolution phase—Positive change results from the resolution process in which
                        management takes action to improve operations based on the recommendations in
                        the published audit report. Management actions are monitored until final action is
                        taken on all recommendations. When management and OIG cannot agree on the
                        actions needed to correct a problem identified in an audit report, the issue can be
                        taken to the NRC Chairman for resolution.

                   Each October, OIG issues an Annual Plan that summarizes the audits planned for the
                   coming fiscal year. Unanticipated high priority issues may arise that generate audits
                   not listed in the Annual Plan. OIG audit staff continually monitor specific issue
                   areas to strengthen OIG’s internal coordination and overall planning process. Under
                   the OIG Issue Area Monitor (IAM) program, staff designated as IAMs are assigned
                   responsibility for keeping abreast of major agency programs and activities. The broad
                   IAM areas address nuclear reactors, nuclear materials, nuclear waste, international
                   programs, security, information management, and financial management and
                   administrative programs.

                   	



4   NRC Office of the Inspector General Semiannual Report to Congress
INVESTIGATIVE PROGRAM
OIG’s responsibility for detecting and preventing fraud, waste, and abuse within NRC
includes investigating possible violations of criminal statutes relating to NRC programs
and activities, investigating misconduct by NRC employees, interfacing with the
Department of Justice on OIG-related criminal matters, and coordinating investigations
and other OIG initiatives with Federal, State, and local investigative agencies and other
OIGs. Investigations may be initiated as a result of allegations or referrals from private
citizens; licensee employees; NRC employees; Congress; other Federal, State, and local
law enforcement agencies; the OIG audits; the OIG Hotline; and IG initiatives directed
at areas bearing a high potential for fraud, waste, and abuse.

Because NRC’s mission is to protect public health and safety, OIG’s Investigative
Program directs much of its resources and attention on investigations of alleged conduct
by NRC staff that could adversely impact matters related to health and safety. These
investigations may address allegations of:

•	    isconduct by high-ranking NRC officials and other NRC officials, such as
     M
     managers and inspectors, whose positions directly impact public health and safety.

•	    ailure by NRC management to ensure that health and safety matters are
     F
     appropriately addressed.

•	    ailure by NRC to appropriately transact nuclear regulation publicly and candidly
     F
     and to openly seek and consider the public’s input during the regulatory process.

•	    onflicts of interest involving NRC employees and NRC contractors and licensees,
     C
     including such matters as promises of future employment for favorable or
     inappropriate treatment and the acceptance of gratuities.

•	    raud in the NRC procurement program involving contractors violating
     F
     Government contracting laws and rules.

OIG has also implemented a series of proactive initiatives designed to identify specific
high-risk areas that are most vulnerable to fraud, waste, and abuse. A primary focus is
electronic-related fraud in the business environment. OIG is committed to improving
the security of this constantly changing electronic business environment by investigating
unauthorized intrusions and computer-related fraud, and by conducting computer
forensic examinations. Other proactive initiatives focus on determining instances of
procurement fraud, theft of property, Government credit card abuse, and fraud in
Federal programs.

	




                                                                       April 1, 2011–September 30, 2011   5
                   OIG GENERAL COUNSEL ACTIVITIES
                   Regulatory Review
                   Pursuant to the Inspector General Act, 5 U.S.C. App. 3, Section 4(a)(2), OIG reviews
                   existing and proposed legislation, regulations, policy, and implementing Management
                   Directives (MD), and makes recommendations to the agency concerning their impact on
                   the economy and efficiency of agency programs and operations.

                   Regulatory review is intended to provide assistance and guidance to the agency prior
                   to the concurrence process so as to avoid formal implementation of potentially flawed
                   documents. OIG does not concur or object to the agency actions reflected in the
                   regulatory documents, but rather offers comments and requests responsive action within
                   specified timeframes.

                   Comments provided in regulatory review reflect an objective analysis of the language
                   of proposed agency statutes, directives, regulations, and policies resulting from OIG
                   insights from audits, investigations, and historical data and experience with agency
                   programs. OIG’s review is structured so as to identify vulnerabilities and offer additional
                   or alternative choices.

                   To effectively track the agency’s response to OIG regulatory review, OIG comments
                   include a request for written replies within 90 days, with either a substantive reply or
                   status of issues raised by OIG.

                   During this reporting period, OIG commented on several MDs related to licensee
                   oversight and employment and staffing. Documents related to information and financial
                   management, transportation, and travel were also reviewed. In addition, the agency
                   provided responsive and corrective action for matters previously reviewed by OIG.
                   Significant regulatory review comments provided by OIG are summarized below.

                   Management Directives

                   Four draft directives were reviewed relating to licensee oversight.

                     Draft MD and Handbook 8.2, “Nuclear Regulatory Commission Incident Response
                     Program,” informs NRC employees of the essential elements of the NRC Incident
                     Response Program used to manage incidents and emergencies involving facilities and
                     materials regulated and licensed by the agency. The draft directive was comprehensive
                     and well constructed. However, OIG suggested addition of language to convey
                     appropriate references to the IG and guidance that OIG, upon request, could provide
                     computer forensic or Law Enforcement Officer assistance.

                     MD and Handbook 8.4, “Management of Plant-Specific Backfitting and Information
                     Collection,” reflected the agency restructuring that resulted in the addition of two
                     new program offices, the Office of New Reactors and the Office of Federal and
                     State Materials and Environmental Management Programs (FSME), as well as
                     designation of generic and plant specific contact points. OIG commented on several



6   NRC Office of the Inspector General Semiannual Report to Congress
 matters related to appropriate referencing of FSME in the draft to include sections
 about backfit appeals; coordination with the regional administrators and the Office
 of Nuclear Security and Incident Response; the development, maintenance, and
 implementation of procedures; and the role of the FSME Director in final disposition.

 Draft MD and Handbook 8.17, “Licensee Complaints Against NRC Employees,”
 contained minor revisions and was intended primarily as a recertification of the
 directive. OIG reviewed the document and suggested clarifications including the
 addition of definitions and additional language on procedural rights for the involved
 employee to include the opportunity to provide relevant information to an agency
 official before licensee staff are engaged. OIG also suggested inclusion of a legend to
 identify the acronyms used in the flow chart of the licensee complaint process.

OIG commented on three revised documents covering pay, performance, and
employee rights.

 Draft MD and Handbook 10.42, “Work Schedules and Premium Pay,” incorporated
 the former MD 10.46, “Credit Hours,” and consolidated guidance on work
 schedules, the newer compressed work schedule, and NRC Employee Work Schedule
 Flexibilities (NEW Flex) programs, and updated guidance to comply with current
 law and regulations. OIG comments provided advice to more correctly describe the
 authority of the IG for OIG employees. In addition, OIG suggested inclusion of
 more definitions and links to definitions for key terminology and adding language
 to clarify the issue of holiday and excused absences that fall on regularly scheduled
 non-workdays. OIG also related that as the “Credit Hour Program” is an important
 feature of the NEWFlex work schedule, it warranted a separate section in the
 Handbook that would include a definition of credit hours within the context of the
 program and clarify that credit hours may not be earned for training. Additional
 definitions and specificity were needed for the sections on premium pay and hours of
 duty and overtime, along with a description of how overtime is calculated and details
 for how employees should document requests related to work schedules.

 With regard to draft MD and Handbook 10.67, “General Grade Performance
 Management System,” OIG provided suggestions for clarification, including
 emphasizing the Chairman’s role in providing overall executive leadership to the
 agency’s personnel system. Further, the role of the IG was rewritten to reflect the
 IG’s authority to implement and approve exceptions to the agency’s general grade
 performance management system for OIG employees. OIG comments also suggested
 that terms of art be spelled out before acronyms were used, that workers excluded from
 usual employee coverage be individually identified by type, and inclusion of additional
 clarification of the directive’s guidance on appraisals and performance plans.

 Draft MD 10.159, “The NRC Differing Professional Opinion (DPO) Program,”
 addressed issues and feedback from the NRC Safety Culture Task Force Report, the
 OIG Safety Culture and Climate Survey, and the Issues Resolution Task Group. This
 directive was reviewed and comments were provided reflecting that the draft did not
 follow the usual MD format overall, and that the internal formatting was confusing.



                                                                      April 1, 2011–September 30, 2011   7
                     In addition, OIG noted the need for further detail and definition in references within
                     the directive to “other documents,” which were not specified, as well as the need
                     for addition of referenced roles, (e.g., “DPO Panel Members”) in the organizational
                     responsibilities section of the directive, and language completely describing OIG’s role
                     and function in two sections that referenced OIG. Other OIG observations included
                     the need for plans for resolving conflicts of interest and confidentiality issues, and the
                     need for revision of the directive flowchart to more closely follow the DPO process.

                   OIG also reviewed the following four MDs pertaining to administrative matters.

                     OIG suggested improving the clarity of draft MD 3.23, “Mail Management,” by
                     further defining the term “premium mail” and adding information related to forms
                     referenced in the directive. OIG also sought clarification to ensure that deletions from
                     prior publications were intentional.

                     Draft MD and Handbook 4.5, “Contingency Plan for Periods of Lapsed
                     Appropriations,” was revised to reflect current agency structure and more recent
                     Governmentwide guidance on shutdown procedures. Comments conveyed the need
                     to specify OIG authority over contract and personnel actions in the event of lapsed
                     appropriations. In addition, OIG provided updated and corrected titles for referenced
                     publications.

                     OIG comments concerning draft MD 13.4,“Transportation Management,” noted
                     an apparent inconsistency between the draft provisions and the agency Collective
                     Bargaining Agreement and the need to include the IG’s authority over vehicle use and
                     the IG Act as a reference. Correction and updating of an identified title and reference
                     was also suggested.

                     Draft MD 14.1, “Official Temporary Duty Travel,” was revised and addressed
                     agency changes in office functions and responded to identified questions related to
                     entitlements in official travel. OIG noted the need for a revised section to accurately
                     reflect the IG’s authority. In addition, the need for additional clarification and
                     correction of information related to Government travel card use and limitations was
                     provided, as well as clarification on the status of train travel categories. OIG comments
                     also offered updated information to be included regarding the changed process for the
                     Chairman’s vouchers.




8   NRC Office of the Inspector General Semiannual Report to Congress
OTHER ACTIVITIES
Support of the IG Community in Training and Presentations
The Attorney General guidelines for statutory law enforcement authority for 1811
special agents within the IG community include the requirement for periodic training
on specified legal issues. The Inspector General Criminal Investigator Academy was
tasked with formulating the syllabus for the training and identification of appropriate
teaching staff. The NRC OIG General Counsel, Maryann Lawrence Grodin, was part
of a group of attorneys from several IG offices who constructed a model 3-hour course
and participated in training a cadre of attorney-trainers. During this period, Ms Grodin
presented the Civil and Administrative Remedies class as part of this mandatory training
program in Dallas, Texas, and in Chicago, Illinois, to more than 50 agents from more
than a dozen Federal agencies.

The Council of Counsels to Inspectors General, a group of attorneys who serve as legal
advisors in the Federal IG community, sponsors a training program for law students
working as summer interns in IG offices in the Washington, DC, area. As part of the
introductory session for this year’s program, the NRC OIG General Counsel provided a
1-hour presentation on the history and concept of the IG in the Federal Government. In
addition to the chronological history, she related the political and philosophical context
of IG authority and functions, adding factual illustrations and anecdotes from practice in
the community.

Ms. Grodin and Nancy Eyl, Assistant Counsel, Department of Homeland Security OIG,
spoke at the 18th Annual National Government Ethics Conference in September 2011.
Their presentation, “Inspector General and Ethics Counsel: Changing Environments and
Challenges–the Sequel,” provided an update to substantive legal authorities, practical
suggestions for support of agency ethics programs and IG functions, along with exercise
questions and a best practices dialogue. The presentation related both statutory and
regulatory authority and standards applicable to each role, and illustrated each discussion
area with examples from practice and evolving case law.



Publication
Ms. Grodin, Ms. Eyl, and Alexandra Keith, Senior Attorney in the Office of General
Counsel of the Special Inspector General for Iraq Reconstruction, published an
article in The Federal Ethics Report, “Growing Old Together: Inspector General and
Ethics Counsel–Changing Environments and Challenges.” This article provides a
comprehensive description of statutory and regulatory rules that define the roles of
Federal Government attorneys serving as ethics and IG counsel, along with the history of
these positions, and discusses their relationships and best practices.




                                                                       April 1, 2011–September 30, 2011   9
Management and Performance Challenges
                       Most Serious Management and Performance Challenges
                            Facing the Nuclear Regulatory Commission*
                                         as of October 1, 2010
                               (as identified by the Inspector General)
                     Challenge 1	 Protection of nuclear material used for civilian purposes.

                     Challenge 2	Managing information to balance security with openness and
                                  accountability.

                     Challenge 3	Ability to modify regulatory processes to meet a changing environment,
                                  to include the licensing of new nuclear facilities.

                     Challenge 4	 Oversight of radiological waste.

                     Challenge 5	Implementation of information technology and information security
                                  measures.

                     Challenge 6	 Administration of all aspects of financial management and procurement.

                     Challenge 7	 Managing human capital.


                   *The most serious management and performance challenges are not ranked in any order of
                    importance.

                   The seven challenges are distinct, yet interdependent relative to the accomplishment of
                   NRC’s mission. For example, the challenge of managing human capital affects all other
                   management and performance challenges.




10   NRC Office of the Inspector General Semiannual Report to Congress
Audits
To help the agency improve its effectiveness and efficiency during this period, OIG completed
11 performance audits or evaluations, which are summarized here, that resulted in numerous
recommendations to NRC management. OIG also analyzed 11 contract audit reports.

AUDIT SUMMARIES
Two Audits of NRC’s Oversight of Independent Spent Fuel
Storage Installations (ISFSIs): Safety and Security
                                                                  Dry Storage of Spent Fuel
OIG Strategic Goals: Safety and Security
With the anticipated growth of nuclear power in the United
States and the uncertainty over the permanent storage of
spent fuel at Yucca Mountain, nuclear power plants have
a growing need for additional spent fuel storage capacity
to support continued operation. ISFSIs are NRC-licensed
facilities that store dry casks containing used nuclear reactor
fuel, otherwise known as spent fuel. Most ISFSIs are located
at operating reactor sites. An ISFSI typically consists of a
concrete storage pad, storage containers (casks), and any
support facilities.
                                                                  Dry cask storage.	                   Source: NRC

The first dry storage ISFSI was licensed by NRC in 1986.
As of April 2011, there were ISFSIs storing spent nuclear fuel or preparing to store spent
nuclear fuel in the near term at 57 different locations across the United States. Of these
ISFSI sites, 47 were located at operating reactors and the remaining 10 were located away
from an operating reactor.

NRC’s safety oversight program for spent fuel storage is designed to prevent radiation-
related deaths and illnesses, and protect the environment. The oversight program includes
inspections and assessments of licensee and vendor activities with a focus on minimizing risk
to public health and safety. NRC periodically inspects the design, fabrication, and use of dry
cask storage systems by sending inspectors to licensee and cask vendor facilities. Inspectors
follow agency guidance that contains objectives and procedures to use for each type of
inspection. Upon completion of these inspections, NRC issues reports to document the
inspection findings.

With regard to security oversight, following the terrorist attacks of September 11, 2001,
NRC conducted a comprehensive review of its security policies and procedures, including
those related to spent fuel storage. NRC recognized the need to reexamine basic assumptions
underlying the civilian nuclear facility security and safeguards programs and embarked upon
a comprehensive review of these programs. NRC issued advisories and orders to licensees
possessing spent nuclear fuel that identified additional security measures and directed
licensees to reevaluate the adequacy of their security programs, plans, and procedures.

OIG conducted two audits related to ISFSI safety and security, respectively:



                                                                          April 1, 2011–September 30, 2011   11
                   The ISFSI safety audit objective was to determine if NRC has the requisite processes in
                   place for reviewing ISFSI safety.

                   The ISFSI security audit objective was to determine the adequacy of NRC’s oversight of
                   ISFSI security.

                   ISFSI Safety Audit Results:
                   The nuclear industry is expecting that by 2025 all commercial nuclear power plants in the
                   United States will have operational ISFSIs at their sites. Currently, there are 104 operating
                   nuclear reactors in the United States. This unprecedented growth in operational ISFSIs,
                   coupled with an uncertainty surrounding the fate of a national high-level waste repository,
                   brings NRC’s oversight of ISFSI safety to the forefront. NRC’s oversight program for
                   ISFSI safety is designed to prevent radiation-related deaths and illnesses and protect the
                   environment. Although there have been no significant issues at ISFSIs, OIG identified
                   opportunities for improvement within the ISFSI safety inspection program pertaining to
                   ISFSI safety inspector training and frequency of routine ISFSI safety inspections.

                   •	    pportunities Exist To Improve ISFSI Safety Inspector Training. NRC conducts
                        O
                        ISFSI safety inspections with regional, resident, and headquarters-based inspectors.
                        The training requirements for these inspectors vary. Although it is NRC’s policy
                        to assign only trained and qualified individuals with the knowledge and aptitude
                        to perform onsite inspection activities consistent with agency expectations, there
                        is no formalized agencywide training program for ISFSI safety inspectors. When
                        ISFSI safety inspectors do not have a consistent understanding of agency inspection
                        requirements, oversight can be compromised. Specifically, there is an increased
                        potential for inadequate inspections to occur, which could result in an increased risk
                        to public health and safety.

                   •	   Routine ISFSI Inspection Frequency Varies Among Regions. The period between
                         routine ISFSI inspections varies among regions from 1 to almost 6 years. Although
                         NRC expects a level of consistency in the performance of ISFSI inspections,
                         inspection frequencies vary because the frequency required to conduct routine ISFSI
                         inspections is not clearly defined. Routine ISFSI safety inspections could be delayed
                         indefinitely without clearly defined inspection frequency guidance, potentially
                         increasing the risk to public health and safety.

                   ISFSI Security Audit Results:
                   While NRC has taken steps to improve its oversight of ISFSI security, and the agency
                   has not experienced any problems with ISFSI security, OIG identified the following
                   opportunities to enhance management of the ISFSI security oversight program:

                   •	    efine key ISFSI security office roles and responsibilities. Three headquarters
                        D
                        program offices, along with the four regional offices, have played important roles in
                        providing oversight of ISFSI security. Although staff involved with ISFSI security
                        oversight understand their roles, there is no process document that outlines the roles
                        and responsibilities of all offices involved. Without this global perspective, there are
                        no assurances that lapses do not occur with the shared responsibilities.


12   NRC Office of the Inspector General Semiannual Report to Congress
•	    pdate the ISFSI security inspection procedure. There is no inspection procedure
     U
     related to current ISFSI security requirements. Currently, inspectors use a temporary
     procedure to evaluate licensee compliance with the 2002 security orders. This
     instruction requires inspectors to conduct only an initial security inspection on
     all ISFSI licensees, but does not mandate any additional inspections or reviews to
     ensure compliance. Also, it provides only basic information on how to conduct
     the inspection and does not clearly define what licensee measures would satisfy the
     security requirements. The Office of Nuclear Security and Incident Response (NSIR)
     has been working to provide more extensive, formal guidance for ensuring licensee
     compliance with ISFSI security orders, including an updated inspection procedure
     that establishes a regular inspection frequency.

•	    rain inspectors assigned to assess ISFSI security. There is no established qualification
     T
     program to train and qualify individuals as “ISFSI security” inspectors. While
     individuals selected to conduct ISFSI security inspections have been qualified as
     inspectors under at least one of NRC’s two inspector qualification programs, neither
     program focuses specifically on ISFSI security.

•	    evelop a centralized database of ISFSI security-related information. Currently, ISFSI
     D
     security-related information is located in multiple database systems and not quickly
     and easily available to inspectors to research prior to conducting security inspections.
     NSIR has initiated an effort to organize this information in a SharePoint site, which is
     an online centralized database for document sharing; however, success of the database
     depends on the input and participation of staff involved with the program.

OIG acknowledges the agency’s post-September 11, 2001, categorization of ISFSIs as
a relatively low security risk and its decision to place security resources on higher risk
programs; however, making certain basic improvements in program management will
facilitate the continued success of ISFSI security and prevent lapses that could occur in
the absence of such improvements.

(The two audits address Management and Performance Challenges #1 and #4)



Audit of NRC’s Shuttle Service
OIG Strategic Goal: Corporate Management
On March 21, 2007, NRC initiated a shuttle service between its main headquarters
complex (White Flint) in Rockville, Maryland, and a nearby interim facility opened to
provide temporary workspace during the construction of a new office building at White
Flint. The shuttle service was eventually expanded to include routes to three additional
interim facilities located within several miles of White Flint. The shuttle service was
initiated to eliminate the need for staff to use their own vehicles and incur expenses to
travel between interim facilities and White Flint for meetings, training, and other official
activities. NRC intends to maintain the shuttle service until construction of the new office
building is completed and employees located in the interim facilities are moved back to
White Flint. Consolidation is planned to occur during calendar year 2012.



                                                                          April 1, 2011–September 30, 2011   13
                                                                 The current shuttle contract, in the amount of $1.1
                                                                 million, started on December 1, 2009, and covered a
                                                                 1-year period. The contract contains two option periods.
                                                                 The first option period, in the amount of $1.1 million,
                                                                 was exercised for another year. The second option period,
                                                                 in the amount of $552,000, covers the period from
                                                                 December 1, 2011, through May 31, 2012.

                                                                 OIG conducted an audit of the NRC shuttle service based
                                                                 on a request made by the Office of the Executive Director
                                                                 for Operations. The audit objective was to determine the
                                                                 effectiveness, efficiency, and economy of the shuttle service
NRC Shuttle Bus.	                                  Source: OIG
                                                                 versus public transportation.

                    Audit Results:
                    OIG determined that NRC staff are satisfied with the shuttle service, and buses generally
                    operate in an efficient and effective manner as required by the contract. Moreover, the
                    shuttle service has proven to be a more convenient option for the agency than using public
                    transportation. However, this report includes five observations that could enhance shuttle safety
                    and security and improve administration of the service contract.

                    (Addresses Management and Performance Challenge #6)



                    Audit of NRC’s Purchase Card Program
                    OIG Strategic Goal: Corporate Management
                    The Governmentwide Purchase Card Program was established in the late 1980s as a way for
                    agencies to streamline the Federal acquisition processes by providing a low-cost, efficient vehicle
                    for obtaining goods and services directly from vendors. Purchase cards can be used for micro-
                    purchases,2 as well as to place orders and make payments on contract activities.

                    The General Services Administration (GSA) administers the Governmentwide Purchase Card
                    Program. GSA contracts with several banks, including Citibank—the bank used by NRC—
                    to provide purchase cards to Federal employees. NRC’s Office of Administration (ADM) is
                    responsible for oversight of NRC’s Purchase Card Program. ADM has a designated Agency
                    Purchase Card Program Coordinator (Coordinator) who is responsible for day-to-day program
                    management. The Coordinator provides oversight of the Purchase Card Program and serves as
                    the liaison between cardholders and the contracting bank.

                    In February 2011, NRC issued a revised Purchase Card Handbook (the Handbook)—
                    originally issued in July 1994—as the agency guidance for employees participating in the
                    Governmentwide Purchase Card Program.

                    2
                        A micro-purchase is an acquisition of supplies or services not subject to the Service Contract Act
                        in which the aggregate amount does not exceed $3,000. For services subject to the Service Contract
                        Act the amount cannot exceed $2,500. For construction projects subject to the Davis-Bacon Act the
                        limit is $2,000.


 14     NRC Office of the Inspector General Semiannual Report to Congress
From December 1, 2008, through March 31, 2010, NRC had
about 160 purchase cardholders who incurred transactions
totaling approximately $8.3 million.3

The audit objective was to determine whether NRC has
established and implemented an effective system of internal
control over the use of Federal purchase cards.
                                                                         OIG Review of Convenience Check Transactions,
Audit Results:                                                           December 1, 2008, Through March 31, 2010 (n=126).	
                                                                                                                Source: OIG Analysis
Overall, NRC has established a Purchase Card Program
that streamlines Federal acquisition processes by providing
an efficient vehicle for obtaining goods and services directly from vendors. However, OIG
identified opportunities for improvement. Specifically:

•	      mployees are not consistently following agency Purchase Card Program guidance. The
       E
       Handbook describes specific requirements for closing purchase card accounts, tagging
       accountable property, and requesting spending limit increases; however, employees do not
       consistently follow these procedures. For example, cardholders do not always notify the
       Coordinator when they separate from NRC, thereby leaving inactive accounts open for an
       extended amount of time. As another example, NRC conducted a physical inventory of its
       property and determined that 416 of 6,839 property items reviewed were not tagged. An
       agency official who conducted the inventory attributed these untagged items to purchases
       made by purchase cardholders without informing their respective property custodian.

•	      mployees appear to be making split transactions_and
       E                                                  4
                                                                using convenience checks
       improperly. Federal and agency guidance prohibit cardholders from making split
       transactions using purchase cards and authorize the use of convenience checks only under
       specific conditions. However, OIG’s review of 180 purchase card transactions made by 19
       cardholders from 14 different offices identified 25 transactions from 8 different offices that
       appeared to be split transactions. OIG also examined 126 convenience check transactions
       and identified 58 that fell outside of Federal and agency guidance.

•	      e agency’s cardholder records are incomplete. NRC does not maintain complete
       Th
       records of NRC purchase cardholders and their delegations of authority. OIG compared
       the list of cardholders maintained by NRC Purchase Card Program management with
       a list generated from Citibank records and cardholder delegations of authority. OIG
       identified 20 of 160 cardholders for which cardholder information was missing from the
       information reviewed. Moreover, agency program management was unable to provide the
       delegations of authority for the designated convenience check writers.

Addressing these concerns will strengthen NRC’s internal control over Federal purchase cards and
reduce the potential for unnecessary expense to the agency and instances of fraud, waste, and abuse.

(Addresses Management and Performance Challenge #6)


3
    As of December 15, 2010, NRC had approximately 131 cardholders.
4
    A split transaction occurs when purchases are made on the same day from the same vendor to
    circumvent cardholder single transaction limits.


                                                                            April 1, 2011–September 30, 2011                    15
                        Audit of NRC’s Oversight of Master Materials Licensees
                        OIG Strategic Goal: Safety
                                               NRC’s mission is to regulate the Nation’s civilian use of
                                               byproduct, source, and special nuclear materials to ensure
                                               adequate protection of public health and safety, promote the
                                               common defense and security, and protect the environment.
                                               NRC regulates medical, industrial, and academic uses of nuclear
                                               materials through a combination of regulatory requirements,
                                               including licensing, inspection, and enforcement. NRC also
                                               issues Master Materials Licenses (MML) to Federal agencies.

                                               An MML is a materials license issued to a Federal agency
                                               authorizing use of material at multiple sites that fall under the
                                               jurisdiction of the Federal agency. The MML allows the Federal
                                               agency to conduct some activities as a regulator, such as issuing
                                               permits for radioactive materials use at the sites that use materials
                                               (referred to as permittees), conducting inspections, handling
                                               allegations, following up on incidents and events, and taking
                                               enforcement actions. NRC, in turn, provides oversight of MML
                                               licensees and permittees through various means.
Generic NRC Oversight
of MML Licensees.       MMLs incorporate by reference a Letter of Understanding that defines the licensee’s
Source: OIG Analysis    responsibilities for the radiation control program and NRC’s role supporting the MML
                        licensee. The MMLs also incorporate by reference “tie downs,” which are documents
                        such as MML licensee procedures for permitting and inspections that become license
                        conditions and are considered part of the license.

                        As of April 2011, NRC had issued MMLs to three Federal agencies: the Department
                        of the Air Force, the Department of the Navy, and the Department of Veterans Affairs.
                        For each MML, the responsible Federal agency has established a master radiation safety
                        committee and an MML licensee staff organization that reports to the committee. The
                        licensee staff organizations conduct the day-to-day management of the MML licensee’s
                        program. The three MML licensee organizations vary based on the numbers and types of
                        permits.

                        Each MML licensee has a corresponding project manager in an NRC region assigned to
                        monitor the MML licensee’s activities. NRC oversight of MML licensees is coordinated
                        by the project managers and is conducted through biennial reviews of the MML licensee
                        program, independent inspections of the MML permittees, accompaniments of MML
                        licensee inspections of the permittees, enforcement, and allegations followup.

                        The audit objective was to determine whether NRC’s oversight of MML licensees
                        adequately protects public health and safety and the environment.




16     NRC Office of the Inspector General Semiannual Report to Congress
Audit Results:
Over the past decade, NRC has made some improvements to its oversight of MML
licensees to facilitate adequate protection of public health and safety and the environment;
however, opportunities exist for NRC to further strengthen its oversight of this unique
type of materials licensee. NRC has developed guidance to oversee MML licensees, and
the agency has taken steps to improve its implementation of its guidance.

NRC management could strengthen MML licensee oversight by improving the guidance
for NRC staff providing technical assistance and training to MML licensees; improving
the guidance for the selection of MML permittees for NRC independent inspection; and
clarifying MML licensee regulatory oversight roles, responsibilities, and accountabilities.

•	    RC Could Improve Guidance for NRC Staff Providing Technical Assistance and
     N
     Training to MML Licensees. MML licensees have difficulty obtaining support they
     need to successfully implement their programs. The Letters of Undestanding state that
     NRC will provide guidance and assistance in areas pertinent to the administration of
     the MML license, including technical assistance and training where NRC has special
     capabilities. NRC management has not provided adequate guidance or a consistent
     process for supporting MML licensee staff. For example, MML licensees often do not
     receive timely or clear responses to their requests for technical assistance. Additionally,
     MML licensees have difficulty getting into NRC-sponsored training courses. Without
     this support, MML licensee staff may lack the knowledge and skills necessary to
     effectively implement their oversight programs and, consequently, they might not
     adequately protect public health and safety and the environment.

•	    uidance on Selection of MML Permittees for Inspection Could Be Improved. NRC
     G
     selection of MML permittees for independent inspection varies. NRC monitors
     MML licensees’ performance primarily through independent inspections of MML
     permittees, and NRC principles regarding regulatory transparency and predictability
     should guide these monitoring actions. However, selection of MML permittees is
     shaped by wide-ranging interpretations of the guidance for MML licensee oversight,
     which directs NRC staff to select a “sufficient number” and to choose a “representative
     sample” of MML permittees to adequately monitor MML licensee and permittee
     performance. Regional variation in selecting MML permittees for inspection is
     a result of unclear and vague guidance. Without a clear definition of inspection
     parameters, MML permittee inspections are at risk of becoming a lower priority than
     deadline-driven activities, which could impair the effectiveness of monitoring MML
     licensee and permittee performance.

•	    RC Should Clarify MML Licensee Regulatory Oversight Roles, Responsibilities,
     N
     and Accountabilities. NRC’s regulatory oversight expectations for MML licensees
     are not enforced. To ensure adequate protection of public health and safety and the
     environment, NRC expects MML licensees to perform regulatory oversight functions.
     However, these expectations are not clearly defined or explicitly enumerated in NRC
     regulations, the MMLs, the Letters of Understanding, or licensee “tie downs.” As a
     result, MML licensees and NRC may have different understandings of MML licensee



                                                                         April 1, 2011–September 30, 2011   17
                          staff and the master radiation safety committee accountabilities and regulatory
                          oversight roles and responsibilities. Consequently, MML licensees may not fully
                          perform these regulatory oversight functions in a manner NRC expects, which could
                          result in inadequate protection of public health, safety, and the environment.

                   (Addresses Management and Performance Challenge #1)



                   Audit of NRC’s Shared “S” Drive
                   OIG Strategic Goal: Corporate Management
                   The President of the United States has directed Federal agencies to promote information
                   sharing with the public and improve the transparency of Government operations.5
                   Nevertheless, applicable laws and Governmentwide policies require NRC and other
                   Federal agencies to protect some types of information against accidental or intentional
                   disclosure.

                   NRC staff process on agency networks a category of sensitive unclassified information
                   unique to NRC called Sensitive Unclassified Non-Safeguards6 Information (SUNSI).7
                   NRC defines SUNSI as:

                             …any information of which the loss, misuse, modification, or unauthorized access
                             can reasonably be foreseen to harm the public interest, the commercial or financial
                             interests of the entity or individual to whom the information pertains, the conduct
                             of NRC and Federal programs, or the personal privacy of individuals.

                   NRC staff can process electronic documents containing SUNSI in a variety of ways.
                   For instance, some documents may be saved in the non-public version of NRC’s online
                   data system—the Agencywide Documents Access and Management System (ADAMS).8
                   Staff may also exchange documents on internal SharePoint9 Web sites, which staff can
                   configure to limit access rights to specific employees or groups of employees. Additionally,
                   NRC staff can save documents on shared network drives.10 These shared drives include
                   “G” drives accessible by staff within NRC program offices; an “R” drive, an agencywide
                   drive with read-only access; and an “S” drive, which allows all staff, whose user accounts
                   are on the same file server, to add, read, edit, and delete documents unless documents are
                   stored in folders configured to limit access to specific employees or groups of employees.

                   5
                       Office of Management and Budget Memorandum M-10-06; Subject: Open Government Directive;
                       December 8, 2009.
                   6
                       Safeguards information is information relating to certain material control and accounting
                       procedures for special nuclear material or security measures for the physical protection of special
                       nuclear material, source material, or byproduct material.
                   7
                       NRC includes Personally Identifiable Information (PII) as a category of SUNSI. PII includes
                       information that can be used to distinguish or trace an individual’s identity, such as one’s date of
                       birth, Social Security Number, or home contact information.
                   8
                       ADAMS is NRC’s official repository for documents pertaining to the agency’s regulatory activities.



18   NRC Office of the Inspector General Semiannual Report to Congress
Regardless of how NRC employees exchange SUNSI on agency networks, Federal law
requires that NRC maintain adequate controls over the confidentiality, integrity, and
availability of this information.11

The audit objective was to assess whether NRC effectively protects electronic documents
containing PII and other types of SUNSI on NRC’s shared network drives.

Audit Results:
NRC has policies for protecting electronic documents containing SUNSI that are
processed on agency shared network drives. NRC guidance requires that access to
documents containing SUNSI be controlled on a need-to-know basis. NRC has
procedures to control documents containing SUNSI that are stored on its computer
network. Nevertheless, auditors found documents containing every category of SUNSI on
shared network drives without appropriate protections.

Examples of PII found include the personal information of past and current NRC
Commissioners, including home addresses, home telephone numbers, passport
information, and credit card information. The other SUNSI categories for which auditors
found information were (1) allegation information; (2) security-related information;
(3) sensitive internal information; (4) investigation information; (5) Federal-, State-,
foreign government, and international agency controlled information; and (6) proprietary
information.

SUNSI appeared on NRC’s shared network drives occurred for three main reasons:

•	      RC has not provided adequate training to NRC staff on specific practices for
       N
       protecting documents containing SUNSI that are processed on shared network drives.

•	      RC has not adequately communicated to its staff specific guidance for protecting
       N
       documents containing SUNSI that are processed on shared network drives.

•	      arying skill levels and the limited scope of office information technology
       V
       coordinators’ duties constrain their ability to educate staff about policies for handling
       SUNSI and ensure staff compliance.

Additionally, during the course of the audit, access control profiles for allegations folders
on a regional office shared network drive changed temporarily to a general default setting.
This error occurred during a network upgrade and temporarily made the allegations
folders accessible to any employees with regional office network access, regardless of
their need to know this information. NRC staff who use the files reported the error,

9
    SharePoint is a software program that allows staff to set up Web sites to share information with
    others and allows staff to manage documents. SharePoint can be used to manage databases,
    reports, and business applications.
10
     Documents containing classified or Safeguards information may not be processed on NRC’s
     unclassified networks or placed in ADAMS.
11
     Federal Information Security Management Act of 2002, 44 U.S.C § 3542.



                                                                                April 1, 2011–September 30, 2011   19
                   and corrective action was taken. Although this was an isolated incident, NRC staff
                   acknowledged a need for quality assurance checks after contractors perform network
                   upgrades to ensure access controls are maintained.

                   Despite instances of problems with controls over SUNSI stored on NRC shared
                   network drives, auditors found no evidence suggesting that this information had been
                   compromised. Nevertheless, without proper training, policy communication, information
                   technology coordinator support, and quality assurance controls, SUNSI on the shared
                   network drives may be at greater risk of unintentional or intentional disclosure,
                   modification, and/or deletion.

                   (Addresses Management and Performance Challenge #5)



                   Audit of NRC’s iLearn Learning Management System
                   OIG Strategic Goal: Corporate Management
                   The NRC implemented the iLearn Learning Management System (iLearn) in April 2008
                   in response to the E-Government Act of 2002.12 iLearn is a vehicle for providing training
                   distribution and tracking services directly to employees. It serves as a central point for
                   training activities across the agency and allows employees to see all NRC-offered courses,
                   develop a learning plan, register for training, track training history, access online training,
                   and complete evaluations from their desktop.

                   NRC procured the system through a Government shared-service provider on a pay-as-
                   you-go basis, using an interagency agreement with the Office of Personnel Management
                   (OPM). The system, a commercial-off-the-shelf product, is hosted by Plateau Systems. As
                   of June 2011, the agency had spent approximately $1.5 million on iLearn and plans to
                   spend almost $500,000 next year.

                   iLearn is intended to be inclusive of all courses offered at NRC. Currently, the system
                   houses 599 online courses; 492 are SkillSoft courses, 42 are Harvard Business courses, and
                   65 are NRC-developed courses.

                   The audit objective was to determine the effectiveness of the iLearn Learning
                   Management System to support the agency’s current and future training needs.




                   12
                        E-Government Act of 2002 (Public Law 107-347), approved by the President on December 17, 2002.




20   NRC Office of the Inspector General Semiannual Report to Congress
Audit Results:
While iLearn is capable of
effectively supporting NRC’s
current and future training needs,
OIG identified the following issues
related to iLearn management:

•	      andatory fields are not always
       M
       complete. Agency guidance requires use of mandatory fields in iLearn to capture
       course prerequisites13 and general information such as course description, course
       length, and point-of-contact. However, these fields are often left blank because
       management (1) does not enforce use of the prerequisite feature and (2) lacks a
       quality assurance program to ensure that mandatory fields are used. Without course
       prerequisite information in iLearn, students are able to register for courses for which
       they are not eligible or prepared, thereby using a training slot that could be used
       by another student who may need the course for timely completion of his or her
       qualification curriculum. Furthermore, incomplete iLearn data makes it difficult for
       users to plan their training effectively and could affect the accuracy of NRC’s biweekly
       reports to the Office of Personnel Management containing training information such
       as training credits, hours, and purpose for each course completed by employees.

•	      RC lacks written policies and procedures describing course manager duties. Federal
       N
       guidance directs that agencies have policies and procedures in place to help ensure
       that agency objectives are met. However, NRC lacks written policies and procedures
       describing the responsibilities of individuals assigned to serve as course managers
       for iLearn courses. Accordingly, course managers are not consistently fulfilling
       their duties. Without established policies and procedures to clearly communicate
       management expectations, course managers may be unaware of their duties or may
       use inconsistent and less than optimal methods to fulfill their duties.

Addressing these issues will improve the effectiveness of iLearn in meeting the agency’s
training needs.

(Addresses Management and Performance Challenge #7)




13 
     In this context, prerequisites are defined as courses that are required to be completed before
     another course can be taken.




                                                                                 April 1, 2011–September 30, 2011   21
                   Audit of NRC’s Management of Licensee Commitments
                   OIG Strategic Goal: Safety
                   NRC regulates commercial nuclear power plants that generate electricity through a
                   combination of regulatory requirements and licensing, inspection, and enforcement
                   activities. One way NRC provides oversight of licensees is through the management of
                   regulatory commitments (commitments). Commitments are docketed, written statements
                   describing a specific action that the licensee has agreed or volunteered to take. They often
                   result from a licensing action such as a license amendment, including power uprates,
                   or from a generic communication, such as generic letters and bulletins. Commitments
                   are neither legally binding nor obligations of a license; however, a commitment may be
                   escalated into a legally binding obligation only if NRC staff deems that the commitment
                   is essential for ensuring public health and safety.

                   Licensees are responsible for creating, tracking, and handling all commitments made to
                   NRC. The licensee is entirely responsible for tracking the commitments, and this includes
                   any changes to the commitments and notification to NRC about such changes. NRC
                   expects licensees to honor commitments in good faith.

                   The audit objective was to assess the extent to which NRC appropriately and consistently
                   utilizes and manages regulatory commitments for power reactor licensees.

                   Audit Results:
                   Part of NRC’s mission is to identify and accomplish those actions that provide the level of
                   nuclear plant performance necessary to ensure adequate protection of public health and
                   safety. A commitment is one tool that NRC uses in the overall licensing process to add
                   flexibility, improve efficiency, and maintain the flow of information between the staff and
                   licensees. OIG identified opportunities for improvement in the following three areas:

                   •	    onsistent implementation of commitment management audits. NRC inconsistently
                        C
                        implements the audits of licensee commitment management programs. For
                        example, NRC project managers responsible for conducting triennial audits of
                        licensee commitment management programs inconsistently identify the universe of
                        commitments eligible for sampling during the audits, have varying views on what
                        constitutes a thorough audit, and conduct the audits differently. This is because
                        agency guidance concerning its performance of required triennial audits is incomplete
                        and imprecise. Incomplete and imprecise guidance concerning the conduct of
                        commitment management audits can result in ineffective audits, inefficient use of
                        resources, and the appearance that NRC provides disparate oversight of similarly
                        situated licensees.

                   •	   S taff understanding of the definition and use of commitments. The definition and
                         use of commitments is not consistently understood throughout the agency. While
                         some staff believe commitments are not enforceable, others said that NRC could
                         enforce commitments. Staff also provided conflicting descriptions for the use of
                         commitments, for example, whether a regulatory decision (e.g., amendment to a




22   NRC Office of the Inspector General Semiannual Report to Congress
       licensing document) can be based on a commitment. In addition, some staff were
       aware of a regulatory practice that incorporates the content of a commitment into a
       licensing action implementation statement, while others were unaware of this option.
       Inconsistent understanding about commitments occurs because NRC training on
       commitments is insufficient. Specifically, training does not effectively address the
       definition and use of commitments and is not provided to all agency staff involved in
       reviewing licensee commitments. This could potentially result in the misapplication
       of commitments by NRC staff.

•	      RC tracking of commitments. NRC does not systematically track commitments
       N
       because the agency does not have an adequate tool for tracking them, in part,
       because the agency has not identified a need for such a tool. More than half of the
       staff interviewed by auditors indicated it would be beneficial to have a commitment
       tracking tool. Without it, NRC cannot completely ensure oversight of commitments,
       which has implications for the agency’s continuing awareness of significant
       commitments, the effectiveness of the triennial commitment management audits, and
       institutional knowledge management.

(Addresses Management and Performance Challenge #3)



Audit of NRC’s SAPHIRE 8 System
OIG Strategic Goal: Corporate Management
One of NRC’s key responsibilities is to help ensure that the operation of nuclear power
plants and other NRC-licensed facilities presents no undue risk to public health and
safety. The agency does this by applying and enforcing a set of technical requirements on
plant design and operations. Since the 1970s, NRC has used probabilistic risk assessment
(PRA) as a tool for assessing, in a realistic manner, the strengths and weaknesses of nuclear
plant design and operation. PRA is a technical analysis that systematically answers three
questions: (1) What can go wrong? (2) How likely is it to happen? and (3) What are the
consequences?

NRC developed the Systems Analysis Programs for Hands-on Integrated Reliability
Evaluations, or SAPHIRE, to aid in conducting these PRA evaluations. SAPHIRE is
a software tool that performs the highly complex mathematics behind PRA. To use
SAPHIRE, a user must first download a copy of the software to his or her personal
computer.14 The user must then input a detailed description of the systems, structures,
and components (i.e., the model) to be analyzed in SAPHIRE. At NRC, these models,
called Standardized Plant Analysis Risk (SPAR) models,15 represent the as-built,
as-operated nuclear plant. Once the SPAR model has been input, users can then enter

14
     Once the SAPHIRE software is downloaded to a user’s personal computer, this software will reside
     on the user’s machine permanently, unless deleted by the user.
15
     SPAR models are plant-specific PRA models that illustrate accident sequence progression, plant
     systems and components, and plant operator actions. The standardized models represent the
     as-built, as-operated plant. NRC staff use these SPAR models to independently assess the risk of
     events or degraded conditions at operating nuclear power plants.



                                                                                April 1, 2011–September 30, 2011   23
                   different combinations of human and/or equipment failures and the nuclear plant’s
                   operating status (e.g., full power, low power, and shut down) to quantify the likelihood of
                   an undesired end state, such as core damage. This allows NRC to model a nuclear power
                   plant’s response to accidents or potential events.

                   In addition to the downloadable SAPHIRE software tool, there is a secure SAPHIRE Web
                   site. Access to the secure SAPHIRE Web site is restricted to approved users who are given
                   unique personal identifications and passwords. Once users log into the Web site, they
                   can access and download the most current version of the SAPHIRE software.16 The most
                   current version, SAPHIRE 8, was released in April 2010.

                   The audit objective was to determine if the system meets its required operational
                   capabilities and applicable security controls.

                   Audit Results:
                   NRC lacks formal policies or procedures for granting and managing access to the
                   SAPHIRE software. This occurs because agency managers have not prioritized the need
                   for a formalized approach to managing access to SAPHIRE 8 and its Web site. Because
                   the agency lacks a formal approach to updating SAPHIRE Web site access lists, more
                   than half of the approved users have not accessed the Web site since July 2010. Many said
                   while they once had a need for SAPHIRE, this is no longer the case.

                   Without knowing the true universe of users, it is difficult for NRC to manage access to
                   the program consistent with Federal guidance on access controls. Although OIG did not
                   discover any instances of inappropriate access being granted to the software tool, many
                   users have maintained Web site access after it was no longer needed. Documented policies
                   and procedures for managing user access could significantly increase the security controls
                   over the system. Furthermore, formal written documentation on granting and managing
                   access to SAPHIRE 8 would assist any new staff who become involved with SAPHIRE
                   management.

                   (Addresses Management and Performance Challenge #5)




                   16
                        Personal identifications and passwords are required only to access the SAPHIRE Web site. Once
                        users have downloaded the SAPHIRE tool to their personal computers, the software can be used
                        without a password. This also applies to SPAR models for NRC users.




24   NRC Office of the Inspector General Semiannual Report to Congress
Evaluation of NRC’s Oversight of Tritium Production at
Commercial Nuclear Power Plants
OIG Strategic Goal: Safety
NRC is responsible for ensuring that nuclear power
plant licensees operate nuclear power plants in a
manner that protects public health and safety and
the environment. Tritium is a radioactive isotope of
hydrogen used in U.S. nuclear weapons. In 1999,
Federal law authorized tritium production at two
commercial nuclear power plants owned by the
Tennessee Valley Authority (TVA).

The Department of Energy (DOE) works with the Department of Defense to maintain                    Source: OIG Analysis

the quantity and quality of the U.S. nuclear weapons stockpile. Tritium production at
commercial nuclear power plants involves the redesign of an important reactor core
component as well as coordination between NRC and DOE. To produce tritium, the normal
absorbing material in the reactor core, boron, is replaced by an isotope of lithium, requiring
a redesign of the absorber rods. That isotope of lithium is an absorber like boron, but the
nuclear reaction it undergoes during the absorption process also produces tritium. Such rods
are called tritium producing burnable absorber rods (TPBAR).

On May 22, 1996, the Secretary of Energy and the NRC Chairman signed a memorandum
of understanding that established the basis for NRC review and consultation regarding
DOE’s use of commercial nuclear reactors for producing tritium. NRC reviewed DOE’s
proposal to test fuel assemblies containing TPBARs in a commercial nuclear reactor and
DOE’s safety assessments on tritium production. In May 1999, NRC issued its own safety
evaluation. Subsequently, NRC also issued license amendments to TVA allowing loading of
TPBARs at Watts Bar Nuclear Power Plant Unit 1 and Sequoyah Nuclear Power Plant Units
1 and 2, although tritium production has only occurred at Watts Bar Unit 1.

The evaluation objective was to determine the effectiveness of NRC’s oversight of tritium
production at commercial nuclear reactors.

Evaluation Results:
NRC’s oversight of tritium production at commercial nuclear power plants is generally effective.
OIG also concluded that NRC’s licensing of tritium production at two nuclear power plants
owned by TVA is permitted under Federal law and although tritium effluents have increased from
TVA’s Watts Bar Unit 1 during tritium production, they are still well below regulatory limits.

However, there are some areas that merit management’s consideration. OIG determined that:

•	   I t is unclear to stakeholders whether TVA needs subsequent NRC authorization to
      produce tritium at Sequoyah Units 1 and 2. NRC management should consider
      clarifying to stakeholders whether Sequoyah Nuclear Power Plant Units 1 and 2 would
      need a subsequent license amendment to be authorized to produce tritium.


                                                                       April 1, 2011–September 30, 2011            25
                   •	    RC’s communication with stakeholders regarding tritium production could be
                        N
                        improved. A communication plan for Watts Bar Unit 1 and Sequoyah Units 1 and 2
                        tritium production was issued August 28, 2001, but it has not been updated and is
                        not an active communication plan. Much has changed with respect to DOE’s tritium
                        production program since the 1996 memorandum of understanding was approved and
                        the 2001 communication plan was written. NRC management should consider updating
                        and reissuing a communication plan for the tritium production program.

                   (Addresses Management and Performance Challenge #1)



                   Audit of NRC’s Internal Control Over Headquarters Fitness
                   Center Membership Fees
                   OIG Strategic Goal: Corporate Management
                                                    NRC offers a physical fitness program as part of its wellness
                                                    services program for agency employees. The fitness program
                                                    was established to provide employees a fitness strategy
                                                    to enhance job performance, decrease absenteeism, and
                                                    prepare employees to meet the physical requirements of
                                                    specified positions. This audit focused on the headquarters
                                                    onsite fitness center (fitness center), which currently has
                                                    approximately 700 members.

                                                    The agency’s fitness center contract is run by a contractor
NRC Headquarters   that provides services and personnel necessary to operate the fitness center in the NRC
Fitness Center.
                   headquarters complex in the Two White Flint North building. The current contract, effective
Source: OIG
                   June 1, 2010, contains a base year and four 1-year option periods. The potential contract
                   value, including the base year and four option periods, is approximately $1.7 million.

                   At the request of the Office of Human Resources, OIG conducted an audit of the
                   effectiveness of NRC’s internal control over fitness center membership fees at headquarters.
                   The request was made after NRC staff informed OIG of three self-identified concerns
                   involving fitness center membership feeds and discussed the agency’s actions to resolve them.

                   Audit Results:
                   OIG determined that effective internal controls are in place over fitness center membership
                   fees. Specifically, the agency recently implemented appropriate actions to resolve self-
                   indentified areas of concern. The agency’s actions facilitate the handling of fitness center
                   membership fees in an efficient and effective manner.

                   While effective internal controls over fitness center membership fees are in place, this report
                   conveys three observations that, if implemented, could further enhance administrative
                   functions concerning the fitness center contract and membership fees.

                   (Addresses Management and Performance Challenge # 6)


26     NRC Office of the Inspector General Semiannual Report to Congress
AUDITS IN PROGRESS
Evaluation of NRC’s Contract Award Process
OIG Strategic Goal: Corporate Management
It is NRC’s policy that the acquisition of supplies and services support the agency’s
mission; are planned, awarded, and administered efficiently and effectively; and
are accomplished in accordance with applicable Federal statutes and procurement
regulations. NRC acquisitions must adhere to the Federal Acquisition Regulation (FAR)
and the NRC Acquisition Regulation (NRCAR). The Federal acquisition process is
intended, among other objectives, to satisfy the customer in terms of cost, quality, and
timeliness of the delivered product or service. The vision for the Federal acquisition
process is to deliver on a timely basis the best value product or service to the customer,
while maintaining the public’s trust and fulfilling public policy objectives.

The Division of Contracts obligated approximately $17.2 million in FY 2009 and $18.5
million in FY 2010 for new contract awards.

The evaluation objectives are to obtain an understanding of NRC’s contract award
process and perform sufficient work to report on the agency’s (1) compliance with
applicable requirements (e.g., FAR and NRCAR requirements), and (2) identify any
opportunities to improve the efficiency and effectiveness of the contract award process to
include timeliness and internal controls.

(Addresses Management and Performance Challenge #6)



Audit of NRC’s FY 2011 Financial Statements
OIG Strategic Goal: Corporate Management
Under the Chief Financial Officers Act and the Government Management and Reform
Act, OIG is required to audit NRC’s financial statements. The report on the audit of the
agency’s financial statements is due on November 15, 2011. In addition, OIG will issue
reports on:

•	 Special Purpose Financial Statements.

•	 Implementation of the Federal Managers’ Financial Integrity Act.

•	 Condensed Financial Statements.

•	 Compliance with the Improper Payments Elimination and Recovery Act of 2010.

The audit objectives are to:

•	 Express opinions on the agency’s financial statements and internal controls.


                                                                      April 1, 2011–September 30, 2011   27
                   •	 Review compliance with applicable laws and regulations.

                   •	 R
                       eview the controls in NRC’s computer systems that are significant to the financial
                      statements.

                   •	 A
                       ssess the agency’s compliance with Office of Management and Budget Circular
                      A-123, Revised, Management’s Responsibility for Internal Control.

                   •	 A
                       ssess agency compliance with the Improper Payments Elimination and Recovery
                      Act of 2010.

                   (Addresses Management and Performance Challenge #6)



                   Audit of NRC’s Management of Import/Export Authorizations
                   OIG Strategic Goal: Security
                   The Atomic Energy Act of 1954, as amended, assigns to NRC responsibility for licensing
                   imports and/or exports of specified nuclear materials and equipment. 10 CFR Part 110
                   contains the regulations that prescribe licensing procedures. NRC coordinates with
                   other executive branch agencies, such as the Department of State and the Department of
                   Energy, in reviewing the license applications.

                   NRC processed approximately 143 import/export licenses during FY 2009, and
                   approximately 104 during FY 2010, as of August 9, 2010.

                   The audit objectives are to determine whether NRC (1) properly reviews and approves
                   import/export authorizations in a timely manner, (2) effectively coordinates this activity
                   with other Federal agencies, and (3) efficiently and effectively coordinates import/export
                   authorizations internally.

                   (Addresses Management and Performance Challenge #1)



                   Audit of NRC’s Process for Evaluating the Relevance of
                   Inspections, Tests, Analyses, and Acceptance Criteria (ITAAC)
                   OIG Strategic Goal: Safety
                   When licensing a plant under Title 10, Code of Federal Regulations (10 CFR), Part
                   52, NRC is required to verify, within the combined license application, the inspections,
                   tests, analyses, and the acceptance criteria (ITAAC) that, if met, are sufficient to
                   provide reasonable assurance that the facility has been constructed and will be operated
                   in conformity with the license, the provisions of the Atomic Energy Act, and the
                   Commission’s rules and regulations.




28   NRC Office of the Inspector General Semiannual Report to Congress
Prior to the implementation of 10 CFR Part 52, the agency identified the ITAACs
needed to issue a combined license for new nuclear power facilities. However, given the
changes in the nuclear industry since the inception of 10 CFR Part 52, there are concerns
that ITAACs may not provide NRC with all of the necessary information needed to
make its licensing decisions.

The audit objective is to assess NRC’s regulatory approach, through the ITAAC review
process, to ensure that new nuclear power plants have been constructed and will be
operated in conformity with the license, the provisions of the Atomic Energy Act, and
the Commission’s rules and regulations.

(Addresses Management and Performance Challenge #3)



Audit of NRC’s Use of Confirmatory Action Letters
OIG Strategic Goal: Safety
While conducting the 2011 “Audit of NRC’s Management of Licensee Commitments,”
OIG reviewed the implementation of several types of commitments, including
commitments in Confirmatory Action Letters (CAL). A CAL is a letter issued to a
licensee or vendor to emphasize and confirm the licensee’s or vendor’s agreement to take
certain actions in response to specific issues. The NRC Enforcement Manual specifies that
the level of significance of the issues addressed in a CAL should be such that if a licensee
did not agree to meet the commitments in the CAL—which does not establish a legally
binding agreement—then the staff would likely proceed to issue an Order, which is
legally binding.

A CAL would likely be issued to a licensee or vendor from one of the regional offices
or from a program office located at NRC headquarters, such as the Office of Nuclear
Reactor Regulation, the Office of Federal and State Materials and Environmental
Management Programs, and the Office of Nuclear Material Safety and Safeguards.
Accordingly, some of these NRC regional and program offices use office instructions
or guidance for considering and issuing a CAL, in addition to the NRC Enforcement
Manual. There is no known Atomic Energy Act (as amended) clause or Code of Federal
Regulations Part/Section that describes or otherwise defines the CAL. That is, the CAL is
an extra-regulatory mechanism variably used in licensing and enforcement, depending on
the issuing office. Given the possible wide range of purposes to issue a CAL and given the
number of different types of offices potentially involved in issuing a CAL, it is important
that NRC implements this regulatory tool in a consistent manner.

The audit objective is to determine the effectiveness of NRC’s utilization of CALs as a
regulatory tool.

(Addresses Management and Performance Challenge #3)




                                                                       April 1, 2011–September 30, 2011   29
                   Audit of NRC’s Oversight of Decommissioned Uranium
                   Recovery Operations
                   OIG Strategic Goal: Safety
                   To provide for the disposal, long-term stabilization, and control of uranium mill
                   tailings17 in a safe and environmentally sound manner, and to minimize or eliminate
                   radiation health hazards to the public, Congress enacted the Uranium Mill Tailings
                   Radiation Control Act of 1978 (UMTRCA). NRC’s role under UMTRCA falls into
                   two separate areas. Under Title I, DOE or the pertinent State is responsible for cleanup
                   and remediation, as well as long-term care and maintenance of the sites, under a general
                   license from NRC. NRC is required to evaluate the site design and implementation,
                   and concur that the site meets the standards established by the U.S. Environmental
                   Protection Agency. Under Title II, NRC licenses uranium recovery operations, some of
                   which have substantial quantities of tailings. NRC’s Office of Federal and State Materials
                   and Environmental Management Programs provides project management and technical
                   review for decommissioning and reclamation of these Title II facilities.

                   The audit objective is to determine the effectiveness of NRC regulatory oversight of
                   decommissioned uranium recovery sites and sites undergoing decommissioning.

                   (Addresses Management and Performance Challenge #4)



                   Audit of NRC’s Oversight of Radiography Sources
                   OIG Strategic Goal: Safety
                   Radiography uses radiation to produce images of a subject, especially the internal features
                   of a subject. For example, industrial radiography enables detection of internal physical
                   imperfections such as voids, cracks, and flaws in welds, piping, and other components
                   and structures. It is routinely used for examination of oil and gas pipelines, boilers, and
                   pressure vessels.

                   Radiographic devices are often portable and subject to theft, loss, and damage. Each year,
                   radiography devices, including their sources, are lost, stolen, or abandoned. The sources
                   in these devices are of great concern because they are made from Cobalt-60, Iridium-
                   192, or other highly radioactive material that can be lethal even in small amounts. For
                   example, one gram of Cobalt-60 will cause a lethal exposure to anyone exposed for 1
                   hour or more at 1 meter or closer.

                   The audit objective is to determine the adequacy of NRC’s processes for overseeing
                   licensee activities addressing the safety and control of radiography sources.

                   (Addresses Management and Performance Challenge #1)


                   17
                        Uranium mill tailings are the leftover crushed rock after the uranium oxides have been removed
                        from uranium ore.


30   NRC Office of the Inspector General Semiannual Report to Congress
Audit of NRC’s Security Significance Determination Process
OIG Strategic Goal: Security
Inspectors use the Significance Determination Process (SDP) to evaluate inspection findings
for significance and to assign significance characterizations to each of them. The term “SDP”
is an overall process description that includes all associated provisions designed to meet
Reactor Oversight Program objectives, such as formal opportunities for licensee input, NRC
management review for any significance characterization of greater than green, Significance
and Enforcement Review Panels, and licensee appeal options. The purpose of the SDP is to
provide tools for assessing licensee performance in a manner that is risk-informed, objective,
predictable, and understandable.

A technical basis for each SDP is provided in a separate Appendix within Inspection Manual
Chapter (IMC) 609, “Significance Determination Process.” Appendix E of IMC 609, Parts I
and II – “Baseline Security SDP for Power Reactors” and “Force on Force” Security SDP for
Power Reactors” provide inspection guidance for evaluating security findings.

The audit objective is to assess NRC’s management of the baseline security inspection
program, including specific program features such as the SDP.

(Addresses Management and Performance Challenge #1)



Audit of NRC’s Protection of Safeguards Information
OIG Strategic Goal: Security
Safeguards information (SGI) is defined as information the disclosure of which could
reasonably be expected to have a significant adverse effect on public health and safety and/or
the common defense and security by significantly increasing the likelihood of theft, diversion,
or sabotage of materials or facilities subject to NRC jurisdiction. Further, SGI identifies the
detailed (1) security measures of a licensee or an applicant for the physical protection of special
nuclear materials, or (2) security measures for the physical protection and location of certain
plant equipment vital to the safety of production or utilization facilities.

NRC established its SGI Security Program to ensure that this information is handled
appropriately and protected from unauthorized disclosure. In accordance with the Atomic Energy
Act of 1954 as amended, civil and criminal penalties can be levied for the unauthorized disclosure
of safeguards information. The requirements of NRC’s program are described in Management
Directive and Handbook 12.7, “NRC Safeguards Information Security Program.”

The audit objective is to assess if NRC adequately ensures the protection of safeguards
information. Specifically, OIG will review how NRC (1) defines what constitutes safeguards
information, (2) prevents the inappropriate release of safeguards information to individuals
who should not have access, and (3) conforms to agency safeguards information policy
directions.

(Addresses Management and Performance Challenge #5)

                                                                        April 1, 2011–September 30, 2011   31
                   FY 2011 Evaluation of FISMA
                   OIG Strategic Goal: Security
                   The Federal Information Security Management Act (FISMA) was enacted on
                   December 17, 2002. FISMA permanently reauthorized the framework laid out in the
                   Government Information Security Reform Act, which expired in November 2002.
                   FISMA outlines the information security management requirements for agencies,
                   including the requirement for an annual review and annual independent assessment
                   by agency Inspectors General. In addition, FISMA includes new provisions such as the
                   development of minimum standards for agency systems, aimed at further strengthening
                   the security of the Federal Government information and information systems. The
                   annual assessments provide agencies with the information needed to determine the
                   effectiveness of overall security programs and to develop strategies and best practices for
                   improving information security.

                   FISMA provides the framework for securing the Federal government’s information
                   technology including both unclassified and national security systems. All agencies
                   must implement the requirements of FISMA and report annually to the Office of
                   Management and Budget and Congress on the effectiveness of their security programs.

                   The objective is to conduct an independent evaluation of NRC’s implementation of
                   FISMA for FY 2011.

                   (Addresses Management and Performance Challenge #5)




32   NRC Office of the Inspector General Semiannual Report to Congress
Investigations
During this reporting period, OIG received 96 allegations, initiated 30 investigations, and
closed 33 cases. In addition, OIG made 19 referrals to NRC management and 5 to the
Department of Justice.

INVESTIGATIVE CASE SUMMARIES
NRC Region II Office of Investigation Handling of
Harassment and Intimidation Complaint against Turkey Point
Nuclear Power Plant
OIG Strategic Goal: Corporate Management
OIG conducted an investigation based on an allegation from a former NRC licensee
employee that the NRC Region II Office of Investigations (OI) did not adequately
investigate the former employee’s discrimination complaint against the licensee.

OIG’s review determined that OI’s discrimination investigation contained complete
background information regarding the case, including a past allegation raised by the
former employee. OI also interviewed the former licensee employee, who clarified and
provided additional insights into the allegation. OI interviews with licensee employees,
the alleger’s co-workers, and management inquired into the basis for the discrimination
complaint and detailed the safety concerns raised by the former licensee employee that
the former employee claimed were the impetus for this individual’s resignation from
the licensee. Further, OI’s coordination and review of the safety concerns were arranged
with NRC staff.

OIG found that OI interviewed relevant personnel and reviewed pertinent documents
to conduct a thorough investigation that addressed the alleger’s concerns.

(Addresses Management and Performance Challenge #7)




                                                                        April 1, 2011–September 30, 2011   33
                   NRC Oversight of Requirements Pertaining to Release of
                   Patients Treated with Medical Radioisotopes
                   OIG Strategic Goal: Safety
                   OIG conducted an investigation based on a concern that NRC’s regulations concerning
                   patients treated with radioisotopes and the criteria for which these patients are released
                   from medical care could potentially irradiate unknowing members of the public. OIG
                   conducted a limited review of NRC’s oversight of licensees that administer Iodine-
                   131 (I-131), a radiopharmaceutical commonly used in therapeutic treatment of
                   hyperthyroidism and thyroid carcinoma.

                   OIG learned that NRC inspects a licensee’s nuclear medicine program in accordance
                   with the NRC inspection procedure and 10 CFR Part 35. NRC inspections of a
                   licensee’s nuclear medical program are documented in NRC Safety Inspection Reports
                   and Compliance Inspection Reports. OIG noted that NRC inspects licensees for
                   compliance with the regulation regarding release criteria, patient instructions, and
                   written records and issues violations to licensees who are non-compliant with the
                   regulation.

                   OIG found that NRC identified a few situations where licensees knowingly released
                   I-131 patients who stayed at a hotel after treatment in accordance with the dose limits
                   of 10 CFR Part 35.75. In addition, NRC staff had anecdotal evidence that releasing
                   I-131 patients to a hotel or another temporary accommodation may not be an
                   uncommon practice; however, 10 CFR Part 35.75 does not limit the location to which
                   the patient may be released and does not specifically address the release of patients to
                   hotels. The regulation is intended to allow physicians (licensees) to assess each situation,
                   thereby providing the best overall treatment for the patient.

                   During the course of the investigation, NRC issued Regulatory Information Summary
                   RIS-2011-01, “NRC Policy on Release of Iodine-131 Therapy Patients Under 10
                   CFR 35.75 to Locations Other Than Private Residences,” which contained more
                   restrictive guidance concerning the release of radiotherapy patients to other than
                   private residences. The RIS states that “although 10 CFR Part 35.75 does not expressly
                   prohibit the release of a radioactive patient to a location other than a private residence,
                   the NRC strongly discourages this practice because it can result in radiation exposures
                   to members of the public for which the licensee may not be able to fully assess
                   compliance with 10 CFR Part 35.75(a) and may result in doses which are not ‘As Low
                   As Reasonably Achievable.’”

                   OIG did not substantiate that there was a widespread practice among licensees of
                   sending patients to a hotel rather than home after an I-131 treatment. OIG found that
                   NRC inspects and issues violations to licensees that are not compliant with regulations.

                   (Addresses Management and Performance Challenge #3)




34   NRC Office of the Inspector General Semiannual Report to Congress
OGC Staff Provided Conflicting Statements on NRC Policy
Regarding Release of Treated Patients to Hotels
OIG Strategic Goal: Corporate Management
OIG conducted an investigation based on an allegation submitted by a former NRC
employee that the NRC Office of the General Counsel (OGC) issued conflicting
statements addressing the recovery of cancer treatment patients in hotels. According
to the allegation, OGC concurred with an Office of Federal and State Materials and
Environmental Management Programs (FSME) document sent to Region I that stated
the release of cancer treatment patients “to a hotel was not prohibited by [NRC]
regulations”; however, in November 2008, OGC filed a legal brief with the U.S. Court
of Appeals for the Ninth Circuit (Ninth Circuit Court of Appeals) that stated, “NRC’s
rule [10 CFR Part 35.75] does not permit or encourage doctors to send treated patients
to hotels.” Also, according to the allegation, NRC, in a written brief to the Ninth
Circuit Court of Appeals, misrepresented the former NRC employee’s comments for the
record pertaining to the former employee’s 10 CFR Part 35.75 petition for rulemaking.

OIG found that FSME and OGC statements describing NRC’s 10 CFR Part 35.75
patient release criteria give contradictory impressions. One statement, which appeared
in a FSME Technical Assistance Request (TAR) response, stated that NRC’s regulations
do not prohibit the release of patients to a hotel. The other statement, which appeared as
a subheading in an NRC legal brief to the Ninth Circuit Court of Appeals, stated that
NRC’s rule does not permit or encourage doctors to send treated patients to hotels. OIG
found that on face value, neither statement accurately reflects the actual language in
the rule, which makes no mention of release destination. However, the TAR response
contained sufficient background and explanatory information to connect the statement
with the language in the rule and, thereby, prevent potential misunderstanding by a
reader. In contrast, the subheading used in OGC’s legal brief contained no explanatory
material and could be misunderstood as suggesting that the rule prohibits release to a
hotel when this is not so.

In January 2011, NRC issued Regulatory Issue Summary RIS-2011-01 to inform
licensees of NRC’s policy on the release of cancer treatment patients. The language in
RIS-2011-01 is similar to the language in the FSME TAR response and states that 10
CFR Part 35.75 does not expressly prohibit the release of a radioactive patient to a
location other than a private residence, but notes that NRC strongly discourages this
practice.

OIG found that NRC’s written legal brief to the Ninth Circuit Court of Appeals
accurately characterized the former NRC employee’s 10 CFR Part 35.75 petition for
rulemaking comments with regard to a correction to the record because it made clear
that the former employee recanted the source of the former employee’s information
about cancer treatment patients going to hotels, but not the former employee’s
overarching concern that the practice was occurring. OIG also found that the brief was
dismissive of the former employee’s concern that some cancer treatment patients go to
hotels following radiation treatment.


                                                                      April 1, 2011–September 30, 2011   35
                   OIG found that while one OGC attorney reviewed both FSME’s TAR response and the
                   OGC legal brief prior to their issuance, the attorney did not identify the contradictory
                   language in the two documents and, therefore, missed an opportunity to inform the
                   OGC attorney who wrote the legal brief, and who represented NRC on the matter
                   before the Ninth Circuit Court of Appeals, of (a) the contradictory language and (b)
                   NRC’s awareness of specific, non-anecdotal cases of cancer treatment patients going to
                   hotels after their release from a hospital.

                   OIG also found that the OGC attorney who wrote the legal brief, and who represented
                   NRC in the legal proceeding, was unaware at the time he wrote the brief of the FSME
                   TAR response and its contents.

                   (Addresses Management and Performance Challenge #7)



                   License Renewal Process Used by Division of License
                   Renewal
                   OIG Strategic Goal: Safety
                   OIG conducted an investigation based on an allegation by a former NRC employee,
                   who alleged that the NRC Division of License Renewal (DLR) project schedule for
                   the Supplemental Environmental Impact Statement (SEIS) is not ideal for the lengthy
                   license renewal review process. The alleger also stated that DLR management pushes
                   staff to complete these reviews, and the process yields inaccuracies. Further, there
                   were concerns with the overall accuracy of the Salem/Hope Creek Supplemental
                   Environmental Impact Statement (SEIS) findings.

                   The license renewal process generally takes 30-months from the time the application
                   is received to the point at which a decision is made on the renewal. One aspect of
                   the license renewal is the development of the draft SEIS, which is required under the
                   National Environmental Policy Act. NRC contracts with a company with subject
                   matter experts to assist in producing draft SEISs.

                   OIG found that the project schedule and review process for the SEIS projects are not
                   unreasonable and are typically scheduled for completion in 18 to 22 months but are
                   often pushed back because of different issues that arise during the process. OIG’s review
                   of the NRC internal Web site for reactor license renewal applications indicated that
                   between January 2003 and the present, the average time to complete an SEIS was 18
                   months, but that there have been instances where final SEISs have been issued up to 32
                   months after receipt of the licensee’s license renewal application. OIG found that the
                   Environmental Protection Agency reviewed the draft SEIS for the Salem/Hope Creek
                   facility and determined it to be an excellent report.

                   OIG did not identify any evidence indicating the license renewal process was flawed.

                   (Addresses Management and Performance Challenge #3)


36   NRC Office of the Inspector General Semiannual Report to Congress
   Summary of OIG Accomplishments
   April 1, 2011, through September 30, 2011



   INVESTIGATIVE STATISTICS
   Source of Allegations

                   NRC Employee                                                                  31

                NRC Management                 5

        Other Government Agency            4

                    General Public                                      17

          OIG Investigation/Audit 0

                           Projects                          8

                Regulated Industry             5

                      Anonymous                                                          24

                        Contractor     2


                                       Allegations resulting from Hotline Program: 39
                                                                             Total: 96



   Disposition of Allegations—April 1, 2011, through September 30, 2011

                              Total                                                96
            Closed Administratively                              41

     Referred for OIG Investigation                     28
Referred to NRC Management and Staff               19

             Pending Review Action     3

         Correlated to Existing Case   1

             Referred to OIG Audit     1

                         Processing    0

             Refer to Other Agency     3




                                                                      April 1, 2011–September 30, 2011   37
                   Status of Investigations

                   DOJ Acceptance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                   DOJ Referrals  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 5
                   DOJ Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .2
                   DOJ Declinations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
                   Sentencing  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .0
                   NRC Administrative Actions:
                   	 Terminations and Resignations  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .0
                   	 Suspensions and Demotions  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1
                   	Counseling .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .6
                   	Recoveries .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                   	Other  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 7
                   State Referrals .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
                   State Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
                   State Accepted  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 0
                   PFCRA18 Referral .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .1
                   PFCRA Acceptance .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .0
                   PFCRA Recovery .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .0
                   PFCRA Pending .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  .  . 1

                   Summary of Investigations
                   Classification of 		          Opened 	 Closed 	 Cases In
                   Investigations	     Carryover	 Cases	 Cases	Progress

                   Employee Misconduct	                                             25	                15	              17	             23
                   Event Inquiry	                                                    3	                 0	               2	              1
                   External Fraud	                                                   6	                 1	               1	              6
                   False Statements	                                                 2	                 2	               3	              1
                   Management Misconduct	                                            3	                 1	               2	              2
                   Miscellaneous	                                                    2	                 6	               5	              3
                   Misuse of Government Property	                                    0	                 1	               0	              1
                   Proactive Initiatives	                                           11	                 4	               2	             13
                   Technical Allegations	                                            1	                 0	               1	              0
                   Theft	                                                            1	                 0	               0	              1

                   	 	 Grand Total	                                                 54	                30	              33	             51


                   18
                        Program Fraud Civil Remedies Act.



38   NRC Office of the Inspector General Semiannual Report to Congress
AUDIT LISTINGS
Internal Performance Audit and Evaluation Reports
Date           Title                                                     Audit Number

05/03/2011	    Audit of NRC’s Oversight of ISFSI Security		              OIG-11-A-10

05/09/2011	    Audit of NRC’s Shuttle Service				                        OIG-11-A-11

05/19/2011	    Audit of NRC’s Oversight of Independent Spent	 	          OIG-11-A-12
		             Fuel Storage Installations Safety

05/31/2011	    Audit of NRC’s Purchase Card Program			                   OIG-11-A-13

06/22/2011	    Audit of NRC’s Oversight of Master Materials Licensees	   OIG-11-A-14

07/27/2011	    Audit of NRC’s Shared “S” Drive				                       OIG-11-A-15

07/27/2011	    Audit of NRC’s iLearn Learning Management System	         OIG-11-A-16

09/19/2011	    Audit of NRC’s Management of Licensee Commitments	 OIG-11-A-17

09/19/2011	 Audit of NRC’s SAPHIRE 8 System			                           OIG-11-A-18
		
09/21/2011	 Evaluation of NRC’s Oversight of Tritium Production	         OIG-11-A-19
		          at Commercial Nuclear Power Plants

09/29/2011	    Audit of NRC’s Internal Control Over Headquarters	        OIG-11-A-20
		             Fitness Center Membership Fees




                                                                 April 1, 2011–September 30, 2011   39
Contract Audit Reports
OIG 	          Contractor/Title/	                            Questioned	   Unsupported
Issued Date	   Contract Number	                              Costs		       Costs
08/31/11	      Southwest Research, Inc.			
	              Report on Audit of CFY 2009 Overhead,
	              General & Administrative, Quality
	              Assurance, Machine Shop, Material
	              Handling, Fringe Benefits and Facilities
	              Capital Cost of Money Provisional
	              Billing and Bidding Rates
	              NRC-02-06-018	                           0		0
	              NRC-02-06-021	                           0		0
	              NRC-41-09-011	                           0		0
	              NRC-03-09-070	                           0		0
	              NRC-03-10-066	                           0		0
	              NRC-03-10-070	                           0		0	
	              NRC-03-10-081	                           0		0
	              NRC-04-10-144	                           0		0
	              NRC-HQ-11-C-03-0047	                     0		0
	              NRC-HQ-11-C-03-0058	                     0		0
08/31/11	 Southwest Research, Inc.			
	         Flash Report on Contractor’s Lack of
	         Provisional Billing and Bidding Rate
	Procedures
	         NRC-02-06-018	                       0		0
	         NRC-02-06-021	                       0		0
	         NRC-41-09-011	                       0		0
	         NRC-03-09-070	                       0		0
	         NRC-03-10-066	                       0		0
	         NRC-03-10-070	                       0		0	
	         NRC-03-10-081	                       0		0
	         NRC-04-10-144	                       0		0
	         NRC-HQ-11-C-03-0047	                 0		0
	         NRC-HQ-11-C-03-0058	                 0		0
08/31/11	      Southwest Research, Inc.			
	              Report on Audit of SwRI Disclosure
	              Statement Revision No. 3
	              NRC-02-06-018	                     0		0
	              NRC-02-06-021	                     0		0			
	              NRC-41-09-011	                     0		0
	              NRC-03-09-070	                     0		0				
	              NRC-03-10-066	                     0		0
	              NRC-03-10-070	                     0		0	
	              NRC-03-10-081	                     0		0
	              NRC-04-10-144	                     0		0
	              NRC-HQ-11-C-03-0047	               0		0
	              NRC-HQ-11-C-03-0058	               0		0
08/31/11	      Southwest Research, Inc.			
	              Report on Audit of Accounting System-
	              Control Environment and Monitoring
	              Internal Controls	
	              NRC-02-06-018	                        0		0

40   NRC Office of the Inspector General Semiannual Report to Congress
OIG 	          Contractor/Title/	           Questioned	   Unsupported
Issued Date	   Contract Number	             Costs		       Costs
	              NRC-02-06-021	               0		0	
	              NRC-41-09-011	               0		0
	              NRC-03-09-070	               0		0
	              NRC-03-10-066	               0		0
	              NRC-03-10-070	               0		0	
	              NRC-03-10-081	               0		0
	              NRC-04-10-144	               0		0
	              NRC-HQ-11-C-03-0047	         0		0
	              NRC-HQ-11-C-03-0058	         0		0
08/31/11	      Southwest Research, Inc.			
	              Report on SwRI’s Provisional CFY 2010
	              Material Handling Burden Rate for
	              Billing and Bidding Purposes
	              NRC-02-06-018	                        0		0
	              NRC-02-06-021	                        0		0
	              NRC-41-09-011	                        0		0
	              NRC-03-09-070	                        0		0
	              NRC-03-10-066	                        0		0
	              NRC-03-10-070	                        0		0	
	              NRC-03-10-081	                        0		0
	              NRC-04-10-144	                        0		0
	              NRC-HQ-11-C-03-0047	                  0		0
	              NRC-HQ-11-C-03-0058	                  0		0
08/31/11	      Southwest Research, Inc.			
	              Independent Audit of SwRI
	              Noncompliance with Disclosure
	              Statement and CAS 418 and CAS 420
	              NRC-02-06-018	                    0		0
	              NRC-02-06-021	                    0		0
	              NRC-41-09-011	                    0		0
	              NRC-03-09-070	                    0		0
	              NRC-03-10-066	                    0		0
	              NRC-03-10-070	                    0		0	
	              NRC-03-10-081	                    0		0
	              NRC-04-10-144	                    0		0
	              NRC-HQ-11-C-03-0047	              0		0
	              NRC-HQ-11-C-03-0058	              0		0
08/31/11	      Southwest Research, Inc.			
	              Report on Annual MAAR 6
	              NRC-02-06-018	            0		0	
	              NRC-02-06-021	            0		0
	              NRC-41-09-011	            0		0
	              NRC-03-09-070	            0		0
	              NRC-03-10-066	            0		0
	              NRC-03-10-070	            0		0	
	              NRC-03-10-081	            0		0
	              NRC-04-10-144	            0		0
	              NRC-HQ-11-C-03-0047	      0		0
	              NRC-HQ-11-C-03-0058	      0		0

                                             April 1, 2011–September 30, 2011   41
OIG 	          Contractor/Title/	                           Questioned	   Unsupported
Issued Date	   Contract Number	                             Costs		       Costs
08/31/11	      Southwest Research, Inc.			
	              Independent Flash Report on Billing
	              System Deficiencies Found in
	              FY 2008 OMB A-133 Compliance
	              Requirement M, Subrecipient Monitoring
	              NRC-02-06-018	                         0		0
	              NRC-02-06-021	                         0		0
	              NRC-41-09-011	                         0		0
	              NRC-03-09-070	                         0		0
	              NRC-03-10-066	                         0		0
	              NRC-03-10-070	                         0		0	
	              NRC-03-10-081	                         0		0
	              NRC-04-10-144	                         0		0
	              NRC-HQ-11-C-03-0047	                   0		0
	              NRC-HQ-11-C-03-0058	                   0		0
08/31/11	      Southwest Research, Inc.				
	              Report on Audit of SwRI’s Compliance
	              With Requirements Applicable to
	              Major Program and Internal Control
	              Over Compliance in Accordance with
	              OMB Circular A-133, Contractor
	              Fiscal Year 2008
	              NRC-02-06-018	                       0		0
	              NRC-02-06-021	                       0		0
	              NRC-41-09-011	                       0		0
	              NRC-03-09-070	                       0		0
	              NRC-03-10-066	                       0		0
	              NRC-03-10-070	                       0		0	
	              NRC-03-10-081	                       0		0
	              NRC-04-10-144	                       0		0
	              NRC-HQ-11-C-03-0047	                 0		0
	              NRC-HQ-11-C-03-0058	                 0		0
09/06/11	      Southwest Research, Inc.
	              Independent Audit of SwRI’s Material
	              Handling Burden Provisional Rate Policies
	              And Procedures
	              NRC-02-06-018	                               0		0
	              NRC-02-06-021	                               0		0
	              NRC-41-09-011	                               0		0
	              NRC-03-09-070	                               0		0
	              NRC-03-10-066	                               0		0
	              NRC-03-10-070	                               0		0	
	              NRC-03-10-081	                               0		0
	              NRC-04-10-144	                               0		0
	              NRC-HQ-11-C-03-0047	                         0		0
	              NRC-HQ-11-C-03-0058	                         0		0

09/07/11	 M. Tuttle & Associates
	         Independent Preaward Audit of
	         M. Tuttle & Associates Accounting
	System
	         NRC-04-10-159	                                    0		0


42   NRC Office of the Inspector General Semiannual Report to Congress
AUDIT RESOLUTION ACTIVITIES
TABLE I
OIG Reports Containing Questioned Costs19
		                  Questioned	Unsupported
	        Number of	   Costs	      Costs
Reports	  Reports	 (Dollars)	(Dollars)

A. 	      For which no management decision
          had been made by the commencement
          of the reporting period	                                    0	                      0	           0

B. 	      Which were issued during the reporting
          period	                                                     0	 0	0

	         Subtotal (A + B)	                                           0	                      0	           0	

C. 	      For which a management decision was
          made during the reporting period:	

	         (i) dollar value of disallowed costs	                       0	                      0	           0	

	         (ii) dollar value of costs not disallowed	                  0	                      0	           0	

D. 	 For which no management decision had
     been made by the end of the reporting period	                    0	                      0	           0

E. 	      For which no management decision was
          made within 6 months of issuance	                           0	                      0	           0




19
     Questioned costs are costs that are questioned by OIG because of an alleged violation of a
     provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or
     document governing the expenditure of funds; a finding that, at the time of the audit, such costs
     are not supported by adequate documentation; or a finding that the expenditure of funds for the
     intended purpose is unnecessary or unreasonable.


                                                                               April 1, 2011–September 30, 2011   43
                 TABLE II
                 OIG Reports Issued with Recommendations
                 That Funds Be Put to Better Use19
                 	                                                                    Number of	           Dollar Value
                 Reports	                                                              Reports	             of Funds

                 A.	      For which no management decision	 0	 0
                          had been made by the commencement
                          of the reporting period			

                 B.	      Which were issued during the 	 0	                                                       0
                          reporting period		

                 C.	      For which a management decision was	
                          made during the reporting period:		

                 	            (i) 	 dollar value of recommendations	                        0	                    0
                          	         that were agreed to by management

                 	         (ii) 	 dollar value of recommendations 	                         0	                    0
                           	      that were not agreed to by management

                 D.	      For which no management decision had	                             0	                    0
                          been made by the end of the reporting
                          period

                 E.	      For which no management decision was	 0	 0
                          made within 6 months of issuance			
                          	



                 19
                      A “recommendation that funds be put to better use” is a recommendation by OIG that funds
                      could be used more efficiently if NRC management took actions to implement and complete
                      the recommendation, including: reductions in outlays; deobligation of funds from programs
                      or operations; withdrawal of interest subsidy costs on loans or loan guarantees, insurance, or
                      bonds; costs not incurred by implementing recommended improvements related to the operations
                      of NRC, a contractor, or a grantee; avoidance of unnecessary expenditures noted in preaward
                      reviews of contract or grant agreements; or any other savings which are specifically identified.




44   NRC Office of the Inspector General Semiannual Report to Congress
TABLE III
Significant Recommendations Described in Previous
Semiannual Reports on Which Corrective Action Has
Not Been Completed
Date	         Report Title	                                                       Number

05/26/2003	    Audit of NRC’s Regulatory Oversight of Special 	                   OIG-03-A-15		
	              Nuclear Materials

	Recommendation 1: Conduct periodic inspections to verify
  that material licensees comply with material control and
  accountability requirements, including, but not
  limited to, visual inspections of licensees’ special nuclear
  material inventories and validation of reported
  information.

9/26/2008	Audit of NRC’s Enforcement Program	                                    OIG-08-A-17

	Recommendation 2: Define systematic data collection
  requirements for non-escalated enforcement actions.

               Recommendation 3: Develop and implement a quality assurance
               process that ensures that collected enforcement data is accurate
               and complete.




                                                                     April 1, 2011–September 30, 2011   45
Abbreviations and Acronyms
      ADAMS 		 Agencywide Documents Access and Management System
      ADM		 Office of Administration (NRC)
      CAL		 confirmatory action letter
      CFR 		 Code of Federal Regulations
      DLR		 Division of License Renewal (NRC)
      DOE 		 U.S. Department of Energy
      DPO 		 Differing Professional Opinion
      FAR		 Federal Acquisition Regulation
      FISMA 		 Federal Information Security Management Act
      FSME 		 Office of Federal and State Materials and Environmental Management Programs (NRC)
      FY 		 Fiscal Year
      GSA		 General Services Administration
      IAM 		 Issue Area Monitor
      IG 		 Inspector General
      ISFSI		 independent spent fuel storage installation
      ITAAC		 inspections, tests, analyses, and the acceptance criteria
      I-131		Iodine-131
      MD 		 Management Directive
      MML		 Master Materials License
      NRC 		 U.S. Nuclear Regulatory Commission
      NRCAR		 NRC Acquisition Regulation	
      OGC		 Office of the General Counsel (NRC)
      OI		 Office of Investigations (NRC)
      OIG 		 Office of the Inspector General (NRC)
      PII		 personally identifiable information
      PRA		 probabilistic risk assessment
      SAPHIRE		 Systems Analysis Programs for Hands-on Integrated Reliability Evaluations
      SDP		 significance determination process
      SEIS		 Supplemental Environment Impact Statement
      SGI		 safeguards information
      SPAR		 standardized plant analysis risk
      SUNSI		 Sensitive Unclassified Non-Safeguards Information
      TAR		 Technical Assistance Request
      TPBAR		 tritium producing burnable absorber rod
      TVA		 Tennessee Valley Authority
      UMTRCA		 Uranium Mill Tailings Radiation Control Act of 1978


46   NRC Office of the Inspector General Semiannual Report to Congress
Reporting Requirements
The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for
semiannual reports. This index cross-references those requirements to the applicable pages
where they are fulfilled in this report.

	
Citation	           Reporting Requirements	                                           Page

Section 4(a)(2) 	   Review of Legislation and Regulations	                              6-8

Section 5(a)(1) 	   Significant Problems, Abuses, and Deficiencies	          11–26, 33–36

Section 5(a)(2) 	   Recommendations for Corrective Action	                           11–26

Section 5(a)(3) 	   Prior Significant Recommendations Not Yet Completed	                 45

Section 5(a)(4) 	   Matters Referred to Prosecutive Authorities	                         38

Section 5(a)(5) 	   Information or Assistance Refused	                                None

Section 5(a)(6) 	   Listing of Audit Reports	                                            39

Section 5(a)(7) 	   Summary of Significant Reports	                          11–26, 33–36

Section 5(a)(8) 	   Audit Reports—Questioned Costs	                                      43

Section 5(a)(9) 	   Audit Reports—Funds Put to Better Use	                               44

Section 5(a)(10)	 Audit Reports Issued Before Commencement of the
	                 Reporting Period for Which No Management Decision
	                 Has Been Made	                                                      None

Section 5(a)(11) 	 Significant Revised Management Decisions	                          None

Section 5(a)(12) 	 Significant Management Decisions With Which
	                  the OIG Disagreed	                                                 None

Public Law 111-203, the Dodd-Frank Wall Street Reform and Consumer
Protection Act, requires IGs to include their peer review results as an
appendix to each Semiannual Report to Congress.

Section 989C	       Peer Review Information	                                             48




                                                                       April 1, 2011–September 30, 2011   47
Appendix
                   Peer Review Information

                   The OIG Audit and Investigative Programs are peer reviewed every 3 years.



                   Audits

                   The NRC OIG Audit Program was peer reviewed most recently by the U.S. Small
                   Business Administration Office of Inspector General. The peer review final report,
                   dated August 24, 2009, reflected that NRC OIG received a peer review rating of pass.
                   This is the highest rating possible based on the available options of pass, pass with
                   deficiencies, or fail.



                   Investigations

                   The NRC OIG Investigative Program was peer reviewed most recently by
                   the U.S. Department of State Office of Inspector General. The peer review final
                   report, dated July 6, 2010, reflected that NRC OIG is in compliance with the quality
                   standards established by the President’s Council on Integrity and Efficiency/Executive
                   Council on Integrity and Efficiency and the Attorney General guidelines.




48   NRC Office of the Inspector General Semiannual Report to Congress
OIG VISION                                                                  OIG STRATEGIC GOALS
“We are agents of positive change striving for continuous                   1. Strengthen NRC’s efforts to protect public health and safety
improvement in our agency’s management and program operations.”                and the environment.
                                                                            2. Enhance NRC’s efforts to increase security in response to an
                                                                               evolving threat environment.
OIG MISSION
                                                                            3. Increase the economy, efficiency, and effectiveness with
NRC OIG’s mission is to (1) independently and objectively conduct              which NRC manages and exercises stewardship over its
and supervise audits and investigations relating to NRC’s programs             resources.
and operations; (2) prevent and detect fraud, waste, and abuse;
and (3) promote economy, efficiency, and effectiveness in NRC’s
programs and operations.




  1


          2

                            5
  3

                                    6
          4

                            7


COVER PHOTOS:
1. Spent fuel stored in pool.
   Photo courtesy of the Nuclear Energy Institute.
2. Dual purpose canister being inserted into transfer cask prior to
   used fuel loading at nuclear reactor site.
   Photo courtesy of Holtec International, Inc.
3. Fuel storage basket inside dual purpose canister is visible.
   Photo courtesy of Holtec International, Inc.
4. Spent fuel assembly being loaded into a Holtec dual purpose canister.
   Photo courtesy of Holtec International, Inc.
5. Dual purpose canister lid being installed underwater.
   Photo courtesy of Holtec International, Inc.
6. Spent fuel cask transported to storage.
7. Dry cask storage of spent nuclear fuel.
               REGU
           EAR     LA
         CL          T




   NU




                        OR
STATES




                          YC
                         OMMI S
 ED




                         SI
    IT




                         O
                    N
         UN




The NRC OIG Hotline
The Hotline Program provides NRC employees, other Government employees, licensee/utility       Semiannual Report
                                                                                               to Congress
employees, contractors and the public with a confidential means of reporting suspicious
activity concerning fraud, waste, abuse, and employee or management misconduct.
Mismanagement of agency programs or danger to public health and safety may also be
reported. We do not attempt to identify persons contacting the Hotline.                        April 1, 2011–September 30, 2011
What should be reported:
• Contract and Procurement Irregularities       • Abuse of Authority
• Conflicts of Interest                         • Misuse of Government Credit Card
• Theft and Misuse of Property                  • Time and Attendance Abuse
• Travel Fraud                                  • Misuse of Information Technology Resources
• Misconduct                                    • Program Mismanagement


Ways to Contact the OIG
                                  Call:
                                  OIG Hotline
                                  1-800-233-3497
                                  TDD: 1-800-270-2787
                                  7:00 a.m. – 4:00 p.m. (EST)
                                  After hours, please leave a message


                                  Submit:
                                  On-Line Form
                                  www.nrc.gov
                                  Click on Inspector General
                                  Click on OIG Hotline



                                  Write:
                                  U.S. Nuclear Regulatory Commission
                                  Office of the Inspector General
                                  Hotline Program, MS O5 E13
                                  11555 Rockville Pike
                                  Rockville, MD 20852-2738


NUREG-1415, Vol. 24, No. 1
October 2011
